<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR INDIAN PROGRAMS</title>
<body><pre>[Senate Hearing 114-194]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 114-194

  THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR INDIAN PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-990 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Anthony Walters, Minority Staff Director and Chief Counsel
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 25, 2015................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Daines......................................    17
Statement of Senator Franken.....................................     2
Statement of Senator Heitkamp....................................    30
Statement of Senator Murkowski...................................    22
Statement of Senator Tester......................................    19
    Prepared statement...........................................    21
Statement of Senator Udall.......................................    26

                               Witnesses

Boyd, Rodger, Deputy Assistant Secretary, Office of Native 
  American Programs, U.S. Department of Housing and Urban 
  Development....................................................    14
    Prepared statement...........................................    15
Roubideaux, Hon. Yvette, M.D., M.P.H., Senior Advisor to the 
  Secretary for American Indians and Alaska Natives, U.S. 
  Department of Health and Human Services; accompanied by: Robert 
  McSwain, Acting Director, Indian Health Service................     9
    Prepared statement...........................................    11
Washburn, Hon. Kevin, Assistant Secretary, Indian Affairs, U.S. 
  Department of the Interior.....................................     2
    Prepared statement...........................................     4

                                Appendix

Confederated Salish and Kootenai Tribes of the Flathead Nation, 
  prepared statement.............................................    38
Difuntorum, Sami Jo, Chairwoman, National American Indian Housing 
  Council, prepared statement....................................    40
Response to written question submitted by Hon. Steve Daines to 
  Hon. Kevin Washburn............................................    44
U.S. Department of Justice, prepared statement...................    37
 
  THE PRESIDENT'S FISCAL YEAR 2016 BUDGET REQUEST FOR INDIAN PROGRAMS

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Now I will call to order the oversight 
hearing.
    As members are aware, we have a roll call vote scheduled 
for approximately 3 o'clock p.m. So I want to move ahead with 
this as rapidly as we can while still giving full attention to 
those who are presenting information today on behalf of the 
President's Fiscal Year 2016 budget for Indian Programs.
    This Country faces a continuing Federal deficit and tight 
budgets. The Federal Government also has important 
responsibilities to Indian people. Those responsibilities 
require funding.
    The President's Fiscal Year 2016 budget request calls for 
increases for both the Bureau of Indian Affairs and the Indian 
Health Service. Whatever funding is provided for these Indian 
programs must be used efficiently and effectively in fulfilling 
Federal responsibilities.
    We will hear from key Federal agencies which serve Indian 
Country now. I am disappointed that the Department of Justice 
is not here to testify today. The Department of Justice 
provides critical public safety services to Indian Country. It 
also supports a multitude of important programs to tribes 
across the Country
    Individual tribal members in Indian Country as a whole 
cannot afford to be ignored by the Administration's Attorney 
General. I have discussed the importance and responsibilities 
of the Department of Justice to Indian Country and this 
Committee with the Attorney General nominee.
    Before we hear from the witnesses present today, I want to 
see if, as the Vice Chairman is not here, if there is an 
additional statement before going to the witnesses.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Well, I have an opening statement, but I 
just want to thank you for holding this oversight hearing and I 
want to thank the witnesses for being here today.
    Budget time is a critical time of year for this Committee. 
I think it is time to examine Native American programs across 
the Federal Government and evaluate priorities for Indian 
Country. It is also an opportunity to shine a light on an area 
of the budget that doesn't receive the attention or the funding 
that it deserves.
    I hope we members who sit on the Committee can educate our 
colleagues who aren't on the Committee, and get these issues to 
their attention, and the funding that they need. Very often 
what comes out of this Committee to me is underfunded. We need 
to do a better job, those of us on the Committee, of talking to 
our colleagues about the importance of this.
    I am going to keep this short and just thank you, Mr. 
Chairman, and thank all the witnesses.
    The Chairman. Any other members have an opening statement 
they would like to offer?
    Today we are hearing from the Honorable Kevin Washburn, 
Assistant Secretary for Indian Affairs, Department of the 
Interior. We are hearing from the Honorable Yvette Roubideaux, 
Senior Advisor, Indian Health Service, Department of Health and 
Human Services. And we will hear from Mr. Rodger Boyd, Deputy 
Assistant Secretary, Office of Native American Programs, 
Department of Housing and Urban Development.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record. 
Please keep your statements to five minutes so that we may have 
time for questions. I look forward to hearing your testimony, 
beginning with Assistant Secretary Washburn. Please proceed.

          STATEMENT OF HON. KEVIN WASHBURN, ASSISTANT 
       SECRETARY, INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Washburn. Thank you, Chairman Barrasso and members. 
Thanks for being here.
    Thank you for the opportunity to speak about the 
President's budget request for fiscal year 2016 for the U.S. 
Department of the Interior. As you know, my office oversees the 
Bureau of Indian Affairs, the Bureau of Indian Education and 
several other offices at the Department.
    The Fiscal Year 2016 budget request for Indian Affairs is 
an increase of $323.5 million above our current budget. That is 
about a 12 percent increase. It raises our budget to about $2.9 
billion. We are obviously very happy with it.
    As you know, we serve about 566 tribes and Native villages 
across the Country. Sixty-eight percent of our budget request 
basically goes directly to tribes through self-governance 
contracts and compacts. So really, much of our budget is a 
pass-through to Native American tribes.
    This year, our budget supports an all-of-government 
approach to addressing Federal responsibilities, the trust 
responsibility. We did something unusual this year. The White 
House Native American Affairs Council, which is chaired by 
Sally Jewell, the Secretary of the Interior, for the first time 
in history called multiple departments together to coordinate 
on our budget request. This has never been done. It probably 
should have been done every year. But this is the first time, 
at the request of Sally Jewell.
    We met with HUD and we met with HHS and our colleagues to 
talk about, how can we work together on a budget. This budget 
is the outcome of that. We have made great strides.
    Indeed, what is just as important in our budget is what is 
not in our budget. So let me first talk about that. Frankly, it 
gives me a chance to thank my colleague, Rodger Boyd. Because 
HUD has $10 million in its budget for teacher housing for our 
teachers in the BIE. That is a big increase.
    Another thing that is not in our budget, but you heard 
about it if you went to the President's State of the Union 
address, is full tuition for two years for students to go to 
community colleges and tribal colleges. So that is a big 
increase that is not in our budget, but it benefits Indian 
Country tremendously.
    Chairman Barrasso, you expressed dismay that the Department 
of Justice is not here. Let me tell you that there is a $100 
million increase in the Department of Justice's budget for 
Indian Country. This again comes from all of us working 
together.
    Likewise, there are some other things that don't appear as 
an increase in the budget, but they will help dramatically. So 
Arne Duncan at the Department of Education has made tribes 
eligible, along with States, to apply for early childhood 
education money. Before, they were not eligible to apply. So he 
has changed that. So that will bring a lot of new money into 
Indian education as well.
    So those are just some things that are not in our Indian 
Affairs budget, but they are very important.
    Now let me talk about the things that are in our budget. 
Among those things are tremendously increased funding for 
Native youth under the President's initiative called Generation 
Indigenous. Our budget request for the BIE increases to about 
$1 billion. Some of that is for a range of things. We have a 
request this year for $45 million for school construction, 
which will finish up the last two schools on our 2004 priority 
list and allow us to start planning for other schools so that 
when we put our priority requests together we can start next 
year with construction at those schools.
    We also have a new line for replacement facility 
construction. So where we have a school, for example, like the 
Bug School that has an elementary school that is fine but a 
high school that is really weak, we don't have to measure the 
whole campus, we could be able to replace one building, for 
example.
    So those are some improvements. We also have $34 million, I 
believe, for improving internet access at these schools, 
because that is so important. A lot of our schools are on the 
wrong side of the digital divide.
    We have also been working with Verizon to provide better 
connectivity at these schools and provide better facilities and 
computers. We have also been working with the E-RATE program at 
the Federal Communications Commission. So we are trying to 
leave no stone unturned for getting better funding for our 
Indian schools.
    We also this year have a request for mandatory funding for 
contract support costs. We have not fully funded contract 
support costs in the past. I think everybody knows the 
importance of self-governance. We have to fully fund contract 
support costs if we want self-governance and self-determination 
contracts to be effective. So we have asked for mandatory 
funding for contract support costs beginning next year. But we 
would be thrilled to start it this year, if that is what 
Congress so chooses.
    In my budget, we also have a funding request for $4.5 
million for an Indian Energy Service Center to help tribes like 
Southern Ute that are in the audience, so that we can bring in 
the Bureau of Land Management, the Office of Natural Resources 
Revenue, Office of Special Trustee under one roof so that they 
can work better to serve our energy-producing tribes.
    Finally, there is a proposed increase of about $40 million 
for climate resilience to help tribes along a range of programs 
that are affected by weather disasters and drought. We look 
forward to seeing this budget passed. We know this is a place 
where there is a lot of bipartisanship around Indian Country, 
and we really hope for our support to get the President's 
budget for Indian Country across the finish line.
    So I congratulate you on your bipartisan support for Indian 
Country and I thank you for having us here today. Thank you.
    [The prepared statement of Mr. Washburn follows:]

Prepared Statement of Hon. Kevin Washburn, Assistant Secretary, Indian 
                Affairs, U.S. Department of the Interior
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. Thank you for the opportunity to provide a 
statement on behalf of the Department of the Interior on the 
President's Budget Request for Fiscal Year 2016 presented to Congress 
on February 2, 2014. The FY 2016 budget request for Indian Affairs 
programs within the Department totals $2.9 billion, which is $323.5 
million more than the FY 2015 enacted level.
    As the Assistant Secretary for Indian Affairs, I have the 
responsibility to oversee the Bureau of Indian Affairs and the Bureau 
of Indian Education, along with other programs within the immediate 
Office of the Assistant Secretary for Indian Affairs. The Office of the 
Assistant Secretary for Indian Affairs, BIA, and BIE programs expend 
over 90 percent of appropriated funds at the local level. Of this 
amount, over 68 percent of the appropriations are provided directly to 
Tribes and tribal organizations through grants, contracts, and compacts 
for Tribes to operate government programs and schools. In sum, tribal 
self-determination and self-governance programs have eclipsed direct 
services provided by the BIA and BIE. Indian Affairs' programs and 
funding serve 566 federally recognized tribes and more than two million 
American Indian and Alaska Native people.
    The 2016 President's budget supports an all-of-government approach 
to addressing Federal responsibilities and tribal needs. Coordination 
of this work across the Federal government is being carried out through 
the White House Council on Native American Affairs, established by 
Executive Order on June 26, 2013, by President Obama, and chaired by 
the Secretary of the Interior. The Council has worked diligently to 
break down silos in Federal agencies and increase coordination on 
programs and budgets. As a result of this all-of-government approach, 
the Administration's support for Tribal Nations goes well beyond the 
budget of Indian Affairs at Interior, or the Indian Health Service at 
the Department of Health and Human Services. Together, the IA and IHS 
represent less than one-half of the Administration's overall budget 
request for tribal programs.
    The President's budget seeks increases across more than 20 Federal 
departments and agencies serving Indian Country. In total, the budget 
proposes $20.8 billion, a $1.5 billion or 8 percent increase over the 
2015 enacted level, across a wide range of Federal programs that serve 
Tribes including education, social services, justice, health, 
infrastructure, and stewardship of land, water, and other natural 
resources. These increases support improved access to Federal programs 
and resources, particularly focused on youth through the 
Administration's newly established Generation Indigenous initiative. 
Investments like these will provide real and sustainable improvements 
in Indian Country.
    Our funding priorities are guided, in part, by careful coordination 
with Tribes through a regional-to-national planning process through the 
Tribal Interior Budget Council. In addition, input from Tribal leaders 
gained from the annual White House Tribal Nations Conference has helped 
guide the Administration's priorities and decision-making processes. 
These and other sources of Tribal input have informed legislative and 
programmatic initiatives and funding priorities in the 2016 budget, 
including full funding and a mandatory proposal for contract support 
costs.
    The Indian Affairs budget provides significant increases across a 
wide range of Federal programs that serve Tribes and supports improved 
access to Federal program and resources. Indian Affairs plays a unique 
and important role in carrying out the Federal trust responsibility and 
in serving Tribes. The budget capitalizes on the central role of Indian 
Affairs in coordinating with other agencies by proposing to create a 
one-stop shop approach for facilitating tribal access to Federal funds 
and programs across the U.S. government.
Creating Opportunities for Native Youth
    The 2016 budget includes key investments to support the launch of 
Generation Indigenous, an initiative focused on addressing barriers to 
success for Native American youth. This initiative takes an 
integrative, comprehensive, and culturally appropriate approach to help 
improve lives and opportunities for Native American youth. Multiple 
Federal agencies, including the Departments of the Interior, Education, 
Housing and Urban Development, Health and Human Services, Agriculture, 
Labor, and Justice, are working collaboratively with Tribes to 
implement education reforms and address issues facing youth.
    In today's global economy, a high quality education is no longer 
just a pathway to opportunity--it is a prerequisite to success. 
President Obama set out a vision for a 21st century education system, 
grounded in both high academic standards and tribal values and 
traditions. The Indian Affairs' budget proposes a $1.0 billion 
investment in Indian education to support a comprehensive 
transformation of the Bureau of Indian Education. The proposal 
recognizes the progress in self-governance in Indian education 
reflected in the fact Tribal Nations have contracted to run more than 
two-thirds of Federal Indian schools. The multi-year transformation 
process will improve the BIE's ability to support Tribes in educating 
their youth and help them provide a world-class and culturally 
appropriate education across Indian Country. The budget invests in 
improving educational opportunities and quality from the earliest years 
through college. The budget request supports this transformation with 
increased investments totaling $93.9 million to improve outcomes in the 
classroom; provide improved instructional services and teacher quality; 
promote enhanced language and cultural programs; enhance broadband and 
digital access; and provide funds to Tribes to encourage creative 
solutions to school transformations. The budget includes an education 
construction increase of $58.7 million to replace the Little Singer 
Community and Cove Day schools in Arizona and to plan for future 
schools to be replaced. The increase also includes $11.9 million to 
address major facility repair needs. To foster public private-
partnerships that will support improving student experiences at BIE-
funded schools, the 2016 budget proposes appropriations language 
enabling the Secretary to activate the National Foundation for American 
Indian Education. The proposed bill language will initiate a foundation 
focused on fundraising to create opportunities for Indian students in 
and out of the classroom.
    Budget increases across other Federal agencies through the 
Generation Indigenous initiative will support educational outcomes and 
provide wrap-around services in the areas of behavioral and mental 
health, substance abuse, and job training.
    The President's budget also requests an additional $3.0 million to 
support youth participation in BIA natural resources programs that 
focus on the protection, enhancement, and conservation of natural 
resources through science, education, and cultural learning. Tribal 
youth will benefit from the mentoring and positive role models provided 
by tribal personnel who work on the ground to manage and protect vital 
trust resources. Programs aimed at tribal youth will pay future 
dividends by opening future job opportunities, instilling respect for 
resources, and developing an appreciation of the importance of natural 
resources to tribal cultures and livelihoods. The request will support 
approximately 60 new tribal youth projects and training programs 
throughout Indian Country and supplement existing training programs 
within the forestry, water, and agriculture programs. In addition, the 
BIE budget includes a $4.6 million increase for scholarships for post-
secondary education, with a focus on recipients seeking degrees in the 
fields of science, technology, engineering, and mathematics. Making 
advanced education opportunities available for tribal members is a high 
priority for Tribes, who see education as the path to economic 
development and a better quality of life for their communities through 
an educated and skilled tribal member workforce.
Supporting Indian Families and Protecting Indian Country
    President Obama knows our youth must be well served in the 
classroom, but it is also important to support Indian families and 
ensure public safety in their communities. Children need a safe 
environment when they go home from school. That is why the President's 
budget request is committed to promoting prosperous tribal communities 
and addressing problems of poverty, violence, and substance abuse. As 
part of the President's commitment to protect and promote the 
development of prosperous tribal communities, BIA will continue the 
Tiwahe initiative. The initiative promotes a comprehensive and 
integrated approach to supporting family stability and strengthening 
tribal communities by addressing interrelated issues associated with 
child welfare, domestic violence, substance abuse, poverty, and 
incarceration. Tiwahe means ``family'' in the Lakota language. The 
Tiwahe initiative directly supports the Generation Indigenous 
initiative, which is focused on addressing barriers to success for 
Native youth, by leveraging BIA programs in concert with other Federal 
programs that support family and community stability and cultural 
awareness.
    Child abuse and neglect continue to be serious and persistent 
problems among Indian populations in the United States. The impact of 
child maltreatment in many Indian communities has been devastating. It 
has disrupted extended family support networks and broken up families 
through placements outside the community. Children living in poverty 
are far more likely to be exposed to violence and psychological trauma, 
both at home and in the surrounding community. Many Indian communities 
face high rates of poverty, substance abuse, suicide, and violent 
crime. The U.S. Census Bureau recently reported that between the years 
2007-2011, 23.9 percent of the American Indian and Alaska Native 
population lived in poverty--a figure that exceeded the national 
poverty rate of 14.3 percent.
    Solutions lie in addressing the interrelated problems of poverty, 
violence, and substance abuse faced by many communities through a 
comprehensive, culturally appropriate approach to help improve the 
lives and opportunities of Indian families. This requires coordination 
of social service programs, taking steps to maintain family 
cohesiveness, preparing family wage earners for work opportunities, and 
providing rehabilitative alternatives to incarceration for family 
members with substance abuse issues. The proposed increase of $6.0 
million for social services programs will support the Tiwahe initiative 
by providing culturally appropriate services with the goal of 
empowering individuals and families through health promotion, family 
stability, and strengthening tribal communities as a whole. The budget 
also includes $4.0 million for Law Enforcement Special Initiatives and 
$5.0 million for tribal courts to implement a comprehensive strategy 
for providing alternatives to incarceration and increases in treatment 
opportunities across Indian Country. The BIA will work with the 
Departments of Justice and Health and Human Services to provide 
comprehensive suicide prevention training to police officers and work 
with tribal courts to identify and make mental health services and 
support more widely available.
    To promote public safety and community resilience in Indian 
communities, the 2016 law enforcement budget builds on recent successes 
in reducing violent crime and expands efforts to lower repeat 
incarceration in Indian Country, which is a Department priority goal. 
In 2016, a pilot program to lower rates of repeat incarceration will be 
expanded from three sites to five, with the goal of reducing recidivism 
by at least three percent within these communities by September 30, 
2017. To achieve this goal, BIA will implement comprehensive 
alternatives to incarceration strategies that seek to address 
underlying causes of repeat offenses--including substance abuse and 
social service needs--by utilizing alternative courts, increased 
treatment opportunities, probation programs, and interagency and 
intergovernmental partnerships with tribal, Federal, and State 
stakeholders.
    The Violence Against Women Reauthorization Act expands the 
jurisdiction of tribal law enforcement and justice systems to domestic 
violence altercations in Indian Country. The BIA Office of Justice 
Services is providing technical assistance to Tribes to change tribal 
legal codes to reflect provisions contained in the reauthorization of 
the Violence Against Women Act that provide stronger protections and 
safety for vulnerable populations. The BIA is also implementing 
training for direct service law enforcement program staff in the areas 
of law enforcement, social services, victim services, and courts and is 
making this training available to Tribes operating these programs under 
self-determination contracts and compacts.
Tribal Nation-Building
    Programs run by Tribes through contracts with the Federal 
Government support tribal nation-building and self-determination. The 
2016 President's budget request for contract support costs is $277.0 
million, an increase of $26.0 million above the 2015 enacted level.
    Based on the most recent analysis, the requested amount will fully 
fund estimated 2016 contract support costs. The budget also includes--
for the first time--a new proposal to fully fund BIA and Indian Health 
Service contract support costs as mandatory funding, beginning in 2017. 
The BIA and IHS will continue to work together with Tribes and consult 
on policies to address long-term programmatic and funding goals to 
advance tribal self-determination.
    Tribal leaders and communities need access to quality data and 
information as they make decisions concerning their communities, 
economic development, land and resource management, and other 
decisions. The ability to access and analyze data to support such 
decisions is critical to understanding the benefits and impacts of 
policy and program decisions. The collection and analysis of data by 
the Federal government is also critical to ensuring Federal agencies 
and programs are delivering effective services to Tribes to meet tribal 
needs and deliver on Federal responsibilities. The budget includes a 
total increase of $12.0 million to help address long-standing concerns 
Tribes have expressed with the quality of data in Indian Country. This 
funding will enable Interior to work with Tribes to improve Federal 
data quality and availability, work with the U.S. Census Bureau to 
address data gaps for Indian Country, and create an Office of Indian 
Affairs Program Evaluation and Data to support effective, data-driven, 
tribal policymaking and program implementation.
    To deliver on an all-of-government approach to Indian Country, the 
BIA budget proposes an increase of $4.0 million to establish a One-Stop 
Tribal Support Center to make it easier for Tribes to find and access 
the hundreds of services available to Tribes across the Federal 
Government. The One-Stop Tribal Support Center will include an online 
portal and services to support Tribes in accessing Federal resources at 
the regional and local levels. The Center will make it easier for 
Tribes to find services and receive consistent information across 
Federal programs. Initially, the Center will focus on programs that 
serve Native American youth, in support of the Generation Indigenous 
initiative and to pilot this new approach to serving needs in Indian 
Country.
    The BIA budget also includes $4.5 million to establish an Indian 
Energy Service Center to facilitate energy development in Indian 
Country. It is imperative that tribal efforts to permit energy 
development on reservation lands are met expeditiously. Income from 
energy is one of the larger sources of revenue generated from trust 
lands, with royalty income climbing to $1.1 billion in 2014. Delays in 
energy development can result in delayed profits to Indian mineral 
rights owners. The Indian Energy Service Center will expedite leasing, 
permitting, and reporting for conventional and renewable energy on 
Indian lands, and--importantly--provide resources to ensure development 
occurs safely, the environment is protected, and risk is managed 
appropriately by technical assistance to support assessment of the 
social and environmental impacts of energy development. The Center will 
be composed of staff from BIA, the Office of Natural Resources Revenue, 
Bureau of Land Management, and Office of the Special Trustee for 
American Indians--all of which have responsibilities related to tribal 
energy development. Working with the Department of Energy's Tribal 
Energy Program, the Center will provide a full suite of energy 
development-related services to Tribes nationwide and meet current 
demands for services. The Center will coordinate and enhance BIA's 
ability to process leases, BLM's responsibility for Applications for 
Permit to Drill approval and monitoring, ONRR's responsibilities for 
royalty accounting, and will institute streamlined processes, 
standardized procedures, and best practices for all types of energy at 
various locations and bureaus.
Sustainable Stewardship of Trust Resources
    The BIA's trust programs assist Tribes in the management, 
development, and protection of Indian trust land and natural resources 
on 55 million surface acres and 57 million acres of subsurface mineral 
estates.
    Taking land into trust is one of the most important functions 
Interior undertakes on behalf of Tribes. Homelands are essential to the 
health, safety, social, cultural, and economic welfare of tribal 
governments. The Administration set an ambitious goal of placing more 
than 500,000 acres of land into trust by the end of 2016. To that end, 
BIA processed more than 1,835 land-into-trust applications, accepting 
more than 281,755 acres in trust on behalf of Tribes since 2009. In 
2014, Interior acquired 41,685 acres of land in trust on behalf of 
Tribes and individuals and approved 290 fee-to-trust applications. The 
BIA intends to meet or exceed the 500,000-acre goal in 2016.
    In December 2014, BIA announced a final rule that will allow the 
Department to accept land into trust for federally recognized Alaska 
Tribes. Previously, Interior regulations allowed tribal nations in the 
continental United States to seek to place lands into trust, but did 
not allow the same for federally recognized Alaska Tribes. Taking land 
into trust for a tribal nation makes the land eligible for certain 
Federal programs that can further tribal sovereignty and economic 
development related to agriculture, energy, infrastructure, and health 
and housing programs. The new rule confirms the Secretary's pre-
existing statutory authority to consider applications to take land into 
trust in Alaska and confirms this authority will be exercised.
    The BIA budget includes a total increase of $6.9 million for Trust 
Real Estate Services activities to bolster the stewardship of trust 
resources. The expanded capacity will address the probate backlog, land 
title and records processing, geospatial support needs, and database 
management. To foster utilization of tribal lands, BIA published a 
proposed new rule on June 17, 2014, to update BIA regulations--which 
were last revised more than 30 years ago--that govern rights-of-way 
across Indian land. The revised regulations are designed to result in 
faster timelines for BIA approval and ensure consistency with recently 
promulgated BIA leasing regulations. In addition, the proposed 
regulations would make the process more efficient and transparent, 
increase flexibility in compensation and valuations, and support 
landowner decisions on land use.
Supporting Climate Resilience in Indian Country
    Tribes throughout the U.S. are already experiencing the impacts of 
a changing climate including drought, intensifying wildfires, changes 
in plants and animals important to subsistence and cultural practices, 
impacts to treaty and trust resources, and coastal erosion and sea 
level rise. In November 2014, the State, Local, and Tribal Leaders Task 
Force--established under Executive Order 13653 Preparing the United 
States for the Impacts of Climate Change--formally released 
recommendations to the White House. These recommendations called on the 
Federal government to partner with Tribes in planning, preparing, and 
responding to the impacts of climate change.
    Responding to these recommendations, which included input from 
hundreds of tribal leaders, the budget provides a total of $50.4 
million, a $40.4 million increase over 2015, across nine BIA trust 
resource programs to support tribal communities in preparing for and 
responding to the impacts of climate change. Funds will provide support 
for Tribes to develop and access science, tools, training, and 
planning; and to implement actions that build resilience into resource 
management, infrastructure, and community development activities. 
Funding will also support Alaska Native Villages in the arctic and 
other critically vulnerable communities in evaluating options for the 
long-term resilience of their communities.
    Tribal lands, particularly in the West, on the Coasts, and in 
Alaska, are on the frontline of climate change, yet many of these 
communities face immense challenges in planning and responding to the 
far-reaching impacts of climate change on infrastructure, economic 
development, food security, natural and cultural resources, and local 
culture. Some communities are already experiencing increasingly 
devastating storms, droughts, floods, sea-level rise, and threats to 
subsistence resources. Strengthening access to information and 
resources, including technical and financial assistance to address the 
combined and cumulative effects, are among the highest priorities for 
supporting climate change adaptation and resilience. Examples of 
projects that may be funded include training, studies, scenario 
planning, natural resource and infrastructure projects, public 
awareness and outreach efforts, capacity building, and other projects. 
Criteria for tribal funding will be developed and prioritized in 
consultation with the Tribes and the interagency White House Council on 
Native American Affairs subgroup on environment and climate change.
Indian Water Rights
    The 2016 budget request for Indian water settlements continues to 
demonstrate the Administration's strong commitment to resolve tribal 
water rights claims and ensure Tribes have access to water to meet 
domestic, economic, cultural, and ecological needs. Many of the 
projects supported in these agreements bring clean and potable water to 
tribal communities, while other projects repair crumbling irrigation 
and water delivery infrastructure on which tribal economies depend. 
These investments improve the health and well-being of tribal members 
and preserve existing economies and, over the long-term, bring the 
potential for jobs and economic development.
    The FY 2016 budget request for technical and legal support and for 
tribal water rights settlements totals $244.5 million, an increase of 
$73.0 million over 2015. This includes a total of $40.8 million for 
Interior-wide technical and legal support and $203.7 million for 
settlement implementation. Of the request for settlement 
implementation, $136.0 million is funded in the Bureau of Reclamation 
and $67.7 million in BIA. In 2016, Interior will complete the funding 
requirements for the Taos Pueblo Indian Water Rights Settlement Act.
    To strengthen the Department's capacity to meet its trust 
responsibilities and more effectively partner with Tribes on water 
issues, the 2016 budget includes a $16.9 million increase across the 
budgets of BIA, Reclamation, BLM, the Fish and Wildlife Service, and 
U.S. Geological Survey. This funding will support a more robust, 
coordinated, Interior-wide approach to working with and supporting 
Tribes in resolving water rights claims and supporting sustainable 
stewardship of tribal water resources. Funds will strengthen the 
engagement, management, and analytical capabilities of the Secretary's 
Indian Water Rights Office; increase coordination and expertise among 
bureaus and offices that work on these issues; and increase support to 
Tribes.
Conclusion
    This FY 2016 budget maintains strong and meaningful relationships 
with Native communities, strengthens government-to-government 
relationships with federally recognized tribes, promotes efficient and 
effective governance, and supports nation-building and self-
determination. The 2016 budget request delivers community services, 
restores tribal homelands, fulfills commitments related to water and 
other resource rights, executes fiduciary trust responsibilities, 
supports the stewardship of energy and other natural resources, creates 
economic opportunity, expands access to education, and assists in 
supporting community resilience in the face of a changing climate.
    Thank you for the opportunity to appear before you today. I am 
happy to answer any questions the Committee may have.

    The Chairman. Thank you so much, Secretary Washburn. Dr. 
Roubideaux?

      STATEMENT OF HON. YVETTE ROUBIDEAUX, M.D., M.P.H., 
         SENIOR ADVISOR TO THE SECRETARY FOR AMERICAN 
INDIANS AND ALASKA NATIVES, U.S. DEPARTMENT OF HEALTH AND HUMAN 
  SERVICES; ACCOMPANIED BY: ROBERT McSWAIN, ACTING DIRECTOR, 
                     INDIAN HEALTH SERVICE

    Dr. Roubideaux. Thank you, Chairman Barrasso and members of 
the Committee. Good afternoon. I am Dr. Yvette Roubideaux, I am 
the Senior Advisor for the Secretary for American Indians and 
Alaska Natives.
    With me today is Mr. Robert McSwain, Acting Director of the 
Indian Health Service. We are pleased to provide testimony on 
the President's proposed fiscal year 2016 budget for the Indian 
Health Service.
    Since 2008, the Indian Health Service appropriations have 
increased by 39 percent, thanks to your Committee's help. These 
investments are making a substantial impact in the quality and 
quantity of health care provided to American Indians and Alaska 
Natives. The President's budget proposes to continue this 
progress, by increasing the IHS budget by $461 million to a 
level of $5.1 billion, which if appropriated will increase the 
IHS budget by 53 percent since 2008.
    The budget continues the Administration's commitment to 
improving health care for American Indians and Alaska Natives. 
The budget proposes increases totaling $147 million to help 
address medical inflation, population growth and pay costs to 
maintain current services.
    The budget also addresses a top tribal priority by 
proposing an overall $70 million increase in Purchased and 
Referred Care, formerly known as Contract Health Services, 
which will help us fund more referrals for our patients and it 
has enabled us to fund more referrals over the past several 
years with the increase. It is also helping us reimburse more 
high cost cases.
    The budget proposes an additional $25 million for IHS to 
expand its methamphetamine and suicide prevention initiative, 
to increase the number of child and adolescent behavioral 
health professionals who will provide direct services and 
implement youth-based programming as a part of the President's 
Generation Indigenous initiative.
    The budget also includes other increases focused on 
improving access to affordable health care, improving third 
party collections and helping IHS continue to achieve 
meaningful use of its electronic health records. The budget 
proposes to reauthorize the successful Special Diabetes Program 
for Indians, or SDPI, for another three years at the current 
$150 million funding level, to continue progress in preventing 
and treating diabetes in American Indian and Alaska Native 
populations.
    The budget includes significant investments in IHS 
facilities, including increases in maintenance and 
improvements, sanitation facilities construction, health care 
facilities construction, which will help us make progress on 
the priority list. The budget proposes an $18 million increase 
to fund additional staff for three newly-constructed facilities 
scheduled to open in fiscal year 2016.
    A top priority is strengthening our partnership with 
tribes. I truly believe that the only way we are going to 
improve the health of our communities is to work in partnership 
with them. This includes honoring and supporting tribal self-
governance and self-determination. That is why we are pleased 
to inform you that the President's budget includes a two-part 
long-term approach to funding contract support costs, which is 
a result of our tribal consultation that was requested last 
year on the long-term solution.
    The first part is full funding for contract support costs 
in FY 2016, for which the budget requests an increase of $55 
million. The second part of the approach is a proposal to 
reclassify contract support costs as mandatory rather than 
discretionary, starting in fiscal year 2017, after tribal 
consultation and working with all of you in fiscal year 2016. 
The proposal is consistent with the top recommendation from 
tribes to fully fund contract support costs but separate from 
the rest of the budget.
    IHS has also worked in partnership with tribes to improve 
estimates of contract support cost need and the agency's 
business practices related to CSC funding. The proposal to 
reclassify CSC as mandatory helps us continue progress on this 
issue. We really look forward to working with you on this 
approach. We have also made progress on our past contract 
support cost claims, which we put in our testimony.
    In summary, the Fiscal Year 2016 President's budget helps 
the Indian Health Service continue progress on improving access 
to quality health care, changing and improving the Indian 
Health Service and strengthens our partnership with tribes. I 
appreciate all of your efforts in helping us ensure a healthier 
future for American Indian and Alaska Natives. Thank you.
    [The prepared statement of Dr. Roubideaux follows:]

  Prepared Statement of Hon. Yvette Roubideaux, M.D., M.P.H., Senior 
Advisor to the Secretary for American Indians and Alaska Natives, U.S. 
                Department of Health and Human Services
    Mr. Chairman and Members of the Committee:
    Good afternoon. I am Dr. Yvette Roubideaux, Senior Advisor to the 
Secretary for American Indians and Alaska Natives. I am pleased to 
provide testimony on the President's proposed FY 2016 budget for the 
IHS and to describe our accomplishments that show the budgets enacted 
in recent years have made a difference in helping us address our agency 
mission to raise the physical, mental, social, and spiritual health of 
American Indians and Alaska Natives (AI/ANs) to the highest level.
    The IHS is an agency within the Department of Health and Human 
Services (HHS) that provides a comprehensive health service delivery 
system for approximately 2.2 million AI/ANs from 566 federally 
recognized Tribes in 35 states. The IHS system consists of 12 Area 
offices, which are further divided into 170 Service Units that provide 
care at the local level. Health services are provided directly by the 
IHS, through Tribally-contracted and operated health programs, through 
services purchased from private providers, and through contracts and 
grants awarded to urban Indian health programs.
    As an agency we are committed to ensuring a healthier future for 
all AI/AN people, and the IHS budget is critical to our progress in 
accomplishing this. Since 2008, IHS appropriations have increased by 39 
percent, thanks in part to your committee, and these investments are 
making a substantial impact in the quantity and quality of health care 
we are able to provide to AI/ANs. The FY 2016 President's budget 
proposes to increase the IHS budget to $5.1 billion, which will add 
$461 million to the FY 2015 enacted funding level, and if appropriated, 
will increase the IHS budget by 53 percent since FY 2008.
    The funding increases proposed in the President's budget are part 
of an ``all of government'' approach to addressing Tribal needs, with a 
particular focus on AI/AN youth. For the IHS, the increases will help 
us improve the quality of and access to care for the patients we serve 
by expanding access to priority health care services that our patients 
need, which will result in better quality and health outcomes.
    The FY 2016 President's Budget proposes current services increases 
totaling $147 million, which are critical to maintain services of our 
IHS and Tribal hospitals and clinics, help address medical inflation, 
population growth and pay costs, and ensure continued support of 
services that are vital to improving health outcomes.
    The FY 2016 President's Budget also addresses a top Tribal priority 
by proposing an overall $70 million increase to the Purchased/Referred 
Care (PRC) budget, formerly known as Contract Health Services. This 
increase includes $43.6 million in medical inflation, $1.2 million in 
additional staffing for new facilities and a $25 million program 
increase. PRC funding has increased almost every year since 2008 (58 
percent overall), which has allowed some of the IHS and Tribally-
managed PRC programs to approve referrals in priority categories other 
than Medical Priority I--Emergent or Acutely Urgent Care Services (life 
or limb), including some preventive care services, thus increasing 
access to patient care services. In 2009, only four IHS-operated PRC 
programs were able to fund referrals that met PRC Medical Priority I. 
In FY 2013, 23 IHS-operated PRC programs were able to purchase services 
beyond Medical Priority I. This number increased to 41 of 69 IHS-
operated PRC programs with the PRC increase in FY 2014. The recent 
increases in PRC have also enabled the Catastrophic Health Emergency 
Fund (CHEF) to reimburse high cost cases submitted through mid-
September, rather than only through June as in the past.
    The FY 2016 President's Budget proposes an additional $25 million 
for the IHS to expand its successful Methamphetamine and Suicide 
Prevention Initiative (MPSI) to increase the number of child and 
adolescent behavioral health professionals who will provide direct 
services and implement youth based programming at IHS, Tribal, and IHS-
funded Urban Indian health programs, school based health centers, or 
youth based programs. This funding will enable the hiring of more 
behavioral health providers specializing in child, adolescent, and 
family services, which will improve access to behavioral health 
prevention treatment services for AI/AN youth. This expansion of the 
MSPI is the central focus of the Tribal Behavioral Health Initiative 
for Native Youth, which is part of the President's comprehensive 
Generation Indigenous Initiative to remove barriers to success and to 
create opportunities for Native youth and reflects a collaborative 
effort between the IHS and the Substance Abuse and Mental Health 
Services Administration.
    The IHS and Tribes have made progress in improving behavioral 
health over the past few years with both the MSPI and the Domestic 
Violence Prevention Initiative (DVPI). The MSPI has funded 130 IHS, 
Tribal, and urban community developed programs since 2009 that have 
provided over 500,000 evidence-based and practice-based youth 
encounters in the first five years of MSPI implementation. The 
successes of the MSPI highlight the effective use culturally 
appropriate interventions and supportive environments, such as 
identification with Native culture, increased social connectedness, and 
discussing problems with friends or family, emotional health, and 
connectedness to family, consistent with the scientific literature on 
prevention of suicide and substance abuse among AI/AN youth. The 
increase in services is significant and, as a result, the percent of 
individuals receiving depression screening in IHS and Tribal facilities 
increased from 35 percent in FY 2008 to 66 percent in FY 2014.
    The DVPI currently funds 57 projects focusing on prevention, 
intervention, and treatment of domestic and sexual violence. Together 
these services have resulted in 50,500 direct service encounters, more 
than 38,000 referrals, and the delivery of over 600 forensic evidence 
collection kits submitted to federal, state, and Tribal law 
enforcement. These are vital services. According to a 2014 Centers for 
Disease Control and Prevention report, American Indian women residing 
on Indian reservations suffer domestic and sexual violence at rates far 
exceeding women of other ethnicities and locations. Native women are 
over 2.5 times more likely to be raped or sexually assaulted compared 
to other women in the U.S.
    The FY 2016 President's budget also includes other increases 
focused on improving access to affordable health care. With the 
Affordable Care Act's Health Insurance Marketplaces and the Medicaid 
expansion, IHS has the potential to increase revenues to support more 
services through third party reimbursements when it provides services 
to eligible American Indians and Alaska Natives with other health 
insurance coverage. The FY 2016 President's budget includes a $10 
million funding increase to improve third party billing and collections 
at IHS and Tribally-operated facilities. Having more patients who are 
Medicaid beneficiaries or have private insurance is one part of 
increasing revenues for our hospitals and clinics. Improving our 
business practices to ensure timely and accurate billing, monitoring of 
open receivables, and follow up on unpaid bills is another critical 
component on which IHS has made progress. In FY 2014, IHS third party 
collections increased by $49 million, mainly due to improvements in 
business practices and from increased third party reimbursements from 
patients with health coverage.
    Another important component necessary to improving quality and 
ensuring better outcomes for our patients is an effective, state-of-
the-art health information technology system that helps us measure 
outcomes and provide better patient care. That is why we continue to 
upgrade the capabilities of our IHS Resource and Patient Management 
System (RPMS), which includes IHS' Electronic Health Record (EHR). The 
FY 2016 President's budget will help IHS to comply with the 
requirements for the 2015 EHR Certification and Stage 3 Meaningful Use 
(MU), through an increase in funding of $10 million. Participation in 
MU is critical for the agency since it promotes activities to improve 
quality and penalties in Medicare payments will occur if IHS does not 
participate.
    IHS has implemented several major upgrades related to MU 
initiative. The IHS was an early adopter of EHR technology and achieved 
certification for Stage 1 MU, resulting in the IHS and Tribal health 
systems receiving over $120 million to date from the MU incentives. IHS 
recently received certification for the 2014 Certified EHR and is 
developing upgrades that will include the ability to achieve MU Stage 
2, which includes the ability to share records between facilities, have 
patients view their health records online, and even have patients send 
direct secure email to providers. IHS is also preparing to implement 
ICD-10 which can now proceed since IHS met the 2014 EHR Certification 
requirements. The IHS RPMS team is currently conducting testing of ICD-
10 software upgrades with four sites and with external payers. We are 
on track to meet the ICD-10 implementation date of October 1, 2015 and 
plan to begin upgrading local RPMS systems in June.
    Another successful program that is helping us improve the provision 
of quality health care is our Special Diabetes Program for Indians 
(SDPI). The FY 2016 President's budget proposes to reauthorize the SDPI 
for another 3 years at the current $150 million funding level to 
continue progress in preventing and treating diabetes in the AI/AN 
population. This program has shown that, in partnership with our 
communities, we can prevent and treat diabetes in Indian country with 
innovative and culturally appropriate activities. The most recent SDPI 
data reflect improvements in diabetes care throughout our system. For 
example, the rate of increase in diabetes prevalence in adults is 
slowing and there is almost no increase in diabetes prevalence in 
youth. In addition, the most recent outcomes paper for the SDPI 
Diabetes Prevention Program (DPP) suggests that the DPP may reduce new 
cases of diabetes through lifestyle changes. Preventing diabetes, 
especially among Native youth, is important since it will help them 
avoid a lifetime of diabetes and related health problems.
    Ensuring access to health care requires efficient and effective 
facilities and infrastructure, which contribute to improving public 
health and health outcomes. The FY 2016 President's budget includes 
significant investments in IHS facilities, including increases for 
maintenance and improvement, sanitation facility construction, and 
health care facility construction. Since 2008 the IHS has maintained 
the facility condition of its health care facilities, provided 
sanitation facilities service to 159,990 Indian homes, funded 2 
hospitals, 6 health centers, and 2 youth regional treatment centers, 
and participated with Tribes in 12 joint venture projects. However, the 
backlog of essential maintenance, alteration, and repair is $467 
million as of the end of FY 2014, over 34,500 AI/AN homes are without 
access to safe water or adequate wastewater disposal facility 
infrastructure and over 182,500 AI/AN homes that require upgrades and/
or capital improvements to the existing sanitation facilities, and 
there remains $2 billion of construction projects still to construct on 
the IHS Health Care Facilities Construction Priority List.
    The FY 2016 President's Budget proposes an additional $171 million 
for the Facilities appropriation to address these needs. Included is 
$35 million to address the maintenance backlog and $36 million to 
provide sanitation facilities to 7,700 more homes than estimated to be 
served in FY 2015. In addition, the health care facilities construction 
budget is proposed to be increased by $100 million for a total funding 
level of $185 million, which will enable the IHS to complete 
construction of the Gila River Southeast Health Center, and begin 
construction on three other projects on the IHS Health Care Facility 
Construction Priority List including the Salt River Northeast Health 
Center in Arizona, the Rapid City Health Center in South Dakota, and 
the Dilkon Alternative Rural Health Center in Arizona.
    Additional staffing for newly constructed facilities is critical to 
achieving the planned increased access to health care. The FY 2016 
President's budget proposes to fund all three of the projects that are 
opening just prior to or in FY 2016. The requested amount is $18 
million to complete the staffing packages for the Southern California 
Youth Regional Treatment Center and the Mississippi Band of Choctaw 
Indians' joint venture health center, and to begin funding of the 
staffing package for the Fort Yuma Health Center.
    A top priority of the IHS is to strengthen our partnership with 
Tribes. I truly believe that the only way that we are going to improve 
the health of our communities is to work in partnership with them. This 
includes honoring and supporting Tribal self-determination and self-
governance. That is why I am pleased to inform you that the FY 2016 
President's budget includes a two-part, long term approach to funding 
contract support costs (CSC), which is the result of our Tribal 
consultation that the House Appropriations Interior Subcommittee 
requested last year on a long-term solution for CSC appropriations. The 
first part of the approach is full funding of the estimated CSC need in 
FY 2016, for which the budget requests an increase of $55 million.
    The second part of the approach is a proposal to reclassify CSC as 
mandatory, rather than discretionary, starting in FY 2017, after Tribal 
consultation in FY 2016. The reclassification of CSC as mandatory would 
be authorized for a 3-year period that specifies annual amounts that 
fully fund the estimated CSC need for each year for FYs 2017-2019. This 
proposal is consistent with the top recommendation in FY 2014 from 
Tribes to shift CSC to a mandatory account as the long term approach to 
fully funding CSC, and will accomplish the top Tribal recommendation to 
fully fund CSC separately from the services budgets. In the past year, 
IHS has worked in partnership with Tribes to improve estimates of CSC 
need and the agency's business practices related to CSC funding. IHS 
has also made progress on past CSC claims, with offers extended on 
1,219 CSC claims and settlements on 883 claims for a total value of 
$679 million. The FY 2016 President's Budget's proposal to reclassify 
CSC as a mandatory appropriation helps us continue progress on this 
issue which is a top priority of Tribes and we look forward to working 
with you on this proposed approach.
    I want to close by emphasizing that even with all the challenges we 
face, I know that, working together with our partners in Indian Country 
and Congress, we can continue changing and improving the IHS to better 
serve Tribal communities. The FY 2016 President's Budget helps IHS 
continue progress on improving access to quality healthcare and 
strengthens our partnership with Tribes. I appreciate all your efforts 
in helping us provide the best possible health care services to the 
people we serve, and in helping to ensure a healthier future for 
American Indians and Alaska Natives.
    Thank you and I am happy to answer any questions you may have.

    The Chairman. Thank you very much, Dr. Roubideaux.
    Secretary Boyd, thanks for joining us.

          STATEMENT OF RODGER BOYD, DEPUTY ASSISTANT 
SECRETARY, OFFICE OF NATIVE AMERICAN PROGRAMS, U.S. DEPARTMENT 
                OF HOUSING AND URBAN DEVELOPMENT

    Mr. Boyd. Thank you, Chairman Barrasso and members of the 
Committee. Thank you for inviting me to provide comments on the 
President's request for 2016 for the Office of Native American 
Programs.
    HUD's programs are available to 566 federally recognized 
tribes, five state-recognized tribes, and the State of Hawaii's 
Department of Hawaiian Homelands. We serve these entities 
directly and through their tribally-designated housing entities 
by providing grants and loan guarantees designed to support the 
development of affordable housing and to create greater 
reservation-sustainable economies and communities.
    In the proposal for fiscal year 2016, in the Indian Housing 
Block Grant program, which is the backbone of our programs, is 
$660 million, an increase of $10 million over 2015. Title 6 
loan guarantee, $2 million. Section 184, the Home Loan 
Guarantee Program, $8 million, which is a $1 million increase. 
Indian Community Development Block Grant, $80 million, which is 
a $14 million increase; $10 million will be set aside for the 
new initiative to address teacher housing in Indian Country.
    Altogether, the request provides a total of $748 million, 
which is $15.9 million more than in FY 2015.
    There has been an opportunity that is being proposed for 
2016 in the overall HUD budget. There is a request in the 
Department, a request of $177.5 million for a new special 
purpose vouchers to assist Native Americans, non-Native 
American families and veterans experiencing homelessness, as 
well as victims of domestic violence. The Jobs Plus program in 
the Department is proposing to expand its program to include 
Indian tribes and Native American families and has set aside 
$15 million for this purpose within the $100 million request 
for Jobs Plus. The Jobs Plus program provides support to help 
residents at assisting housing to obtain employment and 
increase earnings.
    ICDBG was mentioned, we are asking for an additional $10 
million set aside for the ICDBG program to help tribes attract 
and retain high quality teachers in Indian Country by improving 
the availability and physical conditions of teacher housing. 
The setaside is one of several investments according to 
Generation Indigenous, an Administration initiative focusing on 
removing barriers to success for Native youth.
    In closing, HUD's investments in Indian Country are 
yielding positive results as tribes continue to leverage and be 
resourceful with their Federal dollars. HUD strongly supports 
the reauthorization of NAHASDA, which authorized the single 
largest source of Federal funding for housing in Indian 
Country. Thank you.
    [The prepared statement of Mr. Boyd follows:]

 Prepared Statement of Rodger Boyd, Deputy Assistant Secretary, Office 
   of Native American Programs, U.S. Department of Housing and Urban 
                              Development
    Good Afternoon Chairman Barrasso, Vice Chairman Tester, and Members 
of the Committee. Thank you for inviting me to provide comments on 
lending and leveraging in Indian Country. In my remarks today, I will 
focus on how HUD's Indian housing programs provide the tools for us to 
work in partnership with Indian tribes to identify barriers and find 
solutions to further the development of better affordable homes for 
American Indian and Alaska Native communities.
    My name is Rodger Boyd, and I am the Deputy Assistant Secretary for 
Native American Programs at the Department of Housing and Urban 
Development. At HUD, the Office of Native American Programs (ONAP) is 
responsible for the management, operation, and oversight of HUD's 
American Indian, Alaska Native, and Native Hawaiian programs.
    HUD's programs are available to 566 federally recognized Indian 
tribes; 5 state-recognized tribes; and the State of Hawaii's Department 
of Hawaiian Home Lands. We serve these entities directly, or through 
their tribally designated housing entities (TDHEs), by providing grants 
and loan guarantees designed to support the development of affordable 
housing to create greater reservation sustainable economies and 
communities.
    From HUD's perspective, our Title VI leveraging and Section 184 
loan guarantee programs provide solutions to the barriers to Indian 
housing development. These programs have and are making great progress 
in providing housing opportunities to Native American families across 
the country because we do not take a ``one-size-fits-all'' approach to 
Indian Country. Our programs provide the flexibility for our grant and 
loan recipients to design their housing programs based on their unique 
tribal housing and economic development needs. We continue to build 
upon this approach by identifying new ways to work in partnership with 
tribes as we work together to build a better living environment in 
Native American communities through creating sustainable tribal 
communities and tribal economies.
    HUD administers four programs specifically targeted to American 
Indian and Alaska Native individuals and families, including the Indian 
Housing Block Grant program.
    Indian Housing Block Grant (IHBG) grantees received more than $10.6 
billion in 17 years of funding (1998 through 2014). Since the inception 
of the program, IHBG recipients have built or acquired almost 37,000 
affordable housing units in Indian Country, and substantially rehabbed 
almost 73,000. IHBG recipients also currently maintain more than 46,000 
``HUD units'' that were developed before NAHASDA was enacted.
    In implementing these programs, the Department recognizes the right 
of tribal self-governance and the unique relationship between the 
federal government and tribal governments, established by long-standing 
treaties, court decisions, statutes, Executive Orders, and the United 
States Constitution. Each of the 566 federally recognized tribes has 
its own culture, traditions, and government. We view our role as a 
partner to tribes and TDHEs to face challenges and achieve successes in 
Indian housing together.
    A main barrier to Indian housing development is accessing capital 
on reservations. HUD, in partnership with tribes, has attempted to 
overcome this barrier by providing assistance in building capacity for 
tribes to gain private capital through sources such as Low Income 
Housing Tax Credits, the Title VI Loan Guarantee program, and the 
Section 184 Loan Guarantee program. A growing number of tribes are 
using these and other federal and state tools to leverage private 
funding on reservations and tribal lands.
    HUD has encouraged tribes to use leveraging as one possible tool to 
build capacity and maximize the impact of their IHBG funds through the 
Title VI program. Under the Title VI program, HUD can guarantee 95 
percent of outstanding principal and interest on a loan made by a 
private lender to an IHBG recipient for affordable housing activities. 
Borrowers pledge a portion of their current and future IHBG funds as 
security for the repayment of the federally guaranteed financial 
obligation. The 95 percent guarantee has proven to be an incentive for 
private lenders to get involved in the development of tribal housing. 
To date, tribes have used the Title VI program for 80 loans 
representing $206.9 million in volume.
    There have been many success stories as a result of this strategy.
    The Ogala Sioux Tribe in South Dakota is borrowing $6 million to 
build 45 low-rent homes (5 in each of the reservation's 9 districts). 
They were able to almost double the number of homes by purchasing 
modular homes from a state program. This enables them to start meeting 
the housing demand across the reservation.
    The Yakama Nation Housing Authority has used two Title VI loans. 
The first was to finance water storage and wastewater infrastructure 
necessary to support existing housing and a 68-unit LIHTC project. 
Combined, the two loans came to about $15.8 million.
    The Tagiugmiullu Nunamiullu Housing Authority (TNHA) in Alaska is 
currently using Title VI to build highly energy efficient homes using 
technology from the Cold Climate Housing Research Center. In Alaska, it 
is not uncommon for the cost of energy to exceed the mortgage payments. 
By using new technology, TNHA has developed an energy efficient housing 
program that is currently using a $6.7 million Title VI loan to build 
24 homes in northern Alaska.
    Also, the Tohono-O'odham Ki:Ki Association in Arizona will borrow 
$2.5 million to substantially rehabilitate 20 vacant rental units. 
Twelve of these 20 units will receive accessibility upgrades for 
seniors and for persons with disabilities.
    HUD encourages tribes to continue to look beyond their IHBG grant 
funding for other sources of capital to further the expansion of 
housing and economic development in Indian Country. One example is the 
Section 184 loan guarantee program. This program promotes home 
ownership by encouraging lenders to finance mortgages in Indian 
Country. The program has proven successful in that it has produced more 
than 26,000 loans in 20 years. The program is continuing to grow in 
popularity, and is expected to exceed the 3,400 loans guaranteed in 
fiscal year 2014. So far in fiscal year 2015, the program has seen a 21 
percent increase in firm commitments and a 37 percent increase in 
certifications issued, compared to the same period a year before.
    HUD is collaborating with the Bureau of Indian Affairs (BIA) to 
strengthen its relationship with tribes as a means of increasing the 
inventory of available housing in tribal communities. The Office of 
Native American Programs (ONAP) and the BIA have committed to improve 
the loan closing process to reduce the time it takes to guarantee or 
insure loans. The Agencies are also emphasizing self-determination and 
self-governance through the HEARTH Act and by compacting the Land Title 
Records Office functions from the BIA.
    For Fiscal Year 2016, HUD is requesting: $660 million for IHBG, 
which is an increase of $10 million from Fiscal Year 2015 and includes 
$2 million for Title VI Credit Subsidy; and $8 million for Section 184 
Loan Guarantees, which is a $1 million increase from Fiscal Year 2015. 
HUD is also requesting $80 million for the Indian Community Development 
Block Grant, which is a $14 million increase from Fiscal Year 2015, 
from which $10 million will be set-aside for a new initiative to 
address teacher housing in Indian Country. Tribes will be able to 
rehabilitate, acquire, and construct new homes to attract and retain 
teachers in tribal areas. All together, the request provides a total of 
$748 million for these programs, $15.9 million more than in Fiscal Year 
2015.
    Two additional initiatives for Fiscal Year 2016 include the Special 
Purpose Vouchers and the Jobs-Plus set-aside. The Department has 
requested $177.5 million for new Special Purpose Vouchers to assist 
Native Americans, non-Native American families, and Veterans 
experiencing homelessness, as well as victims of domestic and dating 
violence.
    The Jobs-Plus program provides support to help residents of 
assisted housing to obtain employment and increase earnings. The 
Department is proposing to expand this program to include Indian tribes 
and Native American families, and has set aside $15 million for this 
purpose within the $100 million requested for Jobs-Plus.
Closing
    In closing, HUD's investments in Indian Country through leveraging 
and loan guarantees are yielding positive results while recognizing the 
important of tribal sovereignty and government-to-government 
relationships with tribes. In order to continue doing so, HUD strongly 
supports the reauthorization of NAHASDA, which authorizes the single 
largest source of federal funding for housing in Indian Country. We 
have seen the great strides that have been made by tribes under this 
seminal piece of Indian legislation, even in challenging fiscal 
environments. We look forward to working with the Committee and tribes 
to secure reauthorization this year.
    Thank you again, Chairman Barrasso, and members of the Committee, 
for the opportunity to appear before you today. I look forward to 
continuing to work with you and your staffs on these issues. I would be 
happy to answer any questions you may have.

    The Chairman. Thank you, Secretary Boyd.
    Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Dr. Roubideaux, thank you for being here today as well. I 
spend a lot of time traveling across Montana in Indian Country. 
One of the concerns I hear within IHS is the administrative 
costs, that a lot of the expense occurs before the dollars 
actually get down to the people who need the help.
    About how much of IHS's costs are estimated to be 
administrative?
    Dr. Roubideaux. If you look at the overall budget, it is 
approximately 10 percent. If you look at the area office 
budgets, it is equivalent, around 10 to 11 percent as well. So 
most of the, really 90 percent of the funds are used for 
service units, for direct health care for the services that we 
do provide. I do know that tribes have that concern and what we 
have been doing is putting together budgets to show them the 
actual numbers so they can see where that is.
    The administrative portion of IHS has actually been 
decreasing over time, as more tribes take their shares as they 
take over the management of the program. So I would say about 
an average of 10 percent.
    Senator Daines. I appreciate that, and I would be very 
willing to work with you all, looking at how we can reduce the 
overhead so the dollars are getting down to the people who need 
the help.
    I appreciate the comments on self-determination as well. I 
think that is a direction we probably need to head. I hear that 
from our tribes as well. So we would like to have more 
empowerment and control over those dollars, to spend them 
closer to where the people actually are receiving the services.
    We had a recent article in the Billings Gazette about a 
family that was in Ashland, Montana. The contractions came and 
they were making a mad dash to Billings, came through Lame Deer 
Clinic. But there were not facilities there for delivering 
babies. In fact, to quote the mom, she says, ``We were flying 
all the way from Ashland to Billings and we almost made it.'' 
And when she says flying, it wasn't an airplane. They were 
going there quickly in an automobile.
    What kind of reforms do you believe are needed to ensure 
that folks have access to these kinds of services closer to 
home versus two and three hours away if you are driving fast 
and the roads are good?
    Dr. Roubideaux. I completely understand what you are 
saying. When I was a doctor in the Indian Health Service, I 
delivered babies in the ambulance on the way to Globe, Arizona. 
I have delivered babies in a bathroom. And it is such a 
challenge on the front lines in the Indian Health Service to 
meet the need with the available resources.
    However, especially in Montana, we have been talking with 
tribes, and there is a great focus on wanting to improve access 
to care. There have been a number of improvements that have 
been made by the acting director there, trying to expand access 
to services, have the clinics open more hours and actually talk 
with tribes about priorities. Given that we have a fixed budget 
for the amount of services we need to provide, and the need is 
great, trying to align how we spend that budget with tribal 
priorities.
    So for example, at Crow and Northern Cheyenne, they have 
already done renovations for the Adobe unit, and they are 
looking for ways to find revenue to be able to support that 
service and the providers.
    Senator Daines. I appreciate that. I look forward to 
working with you on that as well, out there in the Crow and 
Northern Cheyenne, part of our State.
    Assistant Secretary Washburn, the Montana delegation has 
offered legislation to recognize the Little Shell Tribe for 
several Congresses. We have our entire delegation on board, 
introducing this legislation. I know you have been doing some 
work to reform the Federal recognition process for tribes. How 
might these reforms help the Little Shell Tribe?
    Mr. Washburn. Senator, thank you for the question. It is a 
little bit premature for me to say, honestly. The Little Shell 
have had a tough run of it in our process. That process came to 
near completion. We know that Congress has every right to 
recognize tribes, so we encourage your efforts over here.
    So I don't want to go on record just yet saying what we are 
going to do. We are working on that. We are still sifting 
through lots of comments and trying to figure out exactly what 
the new regulations ought to look like. We want it to be a very 
rigorous process and it certainly is. We know that there are 
other mechanisms for recognition. Congress has recognized a lot 
of tribes over the last couple of decades. That may be an 
appropriate route for Little Shell recognition.
    Senator Daines. I know they have stacks and stacks and 
stacks of paperwork as they move through the process. It has 
been decades. If I can get your commitment that we will work 
together, whether it is administratively or legislatively, to 
get that ball across the goal line.
    Mr. Washburn. We would be delighted to work with you. Thank 
you, Senator Daines.
    Senator Daines. In terms of the Department's resources, how 
much of an impact would Federal recognition of the Little Shell 
Tribe have on the BIA's budget?
    Mr. Washburn. We don't actually look at that as part of our 
criteria. Because if we have a Federal trust responsibility to 
that tribe, if they ought to be a federally-recognized tribe, 
then that shouldn't be a big part of our consideration. We have 
566 tribes. On balance, one additional tribe doesn't add a lot 
of marginal costs, usually.
    I don't know what the specific numbers would be with regard 
to Little Shell.
    Senator Daines. Thank you, Secretary Washburn.
    The Chairman. Thank you, Senator Daines.
    We are in the middle of a vote and a number of people have 
left. They are going to be returning, and I am going to have to 
leave shortly. It is interesting, the President's budget 
request proposes to transfer the contract support costs from 
discretionary funding to mandatory funding. The law states that 
costs like this have to be offset. I am just wondering what the 
Administration proposes to do as an offset for these costs 
shifting from discretionary to mandatory. Perhaps, Mr. 
Secretary, you can start, then I will ask you also, Dr. 
Roubideaux.
    Mr. Washburn. Thank you, Chairman. One of the things we 
propose to do, essentially, we have to fund contract support 
costs. So this year, what we would intend to do and what we 
have projected forward is to take the amount that would have 
been a discretionary fund basically and move that into the 
mandatory funding. So we would reduce what we ask for in our 
discretionary funding for that. So that is essentially, in the 
short term at least, how we figure this out.
    We are going to need your agreement to this, because I 
think this Committee even has jurisdiction over part of this 
question. So we definitely need your support to make this 
happen.
    We think tribes need to have certainty, and they need to be 
able to count on this money. We have not been very trustworthy 
before, neither the Administration nor Congress, in fully 
funding contract support costs. So this is a way, alluded to if 
not endorsed by the appropriations committees to deal with this 
issue. We hope that they do endorse it.
    The Chairman. Dr. Roubideaux?
    Dr. Roubideaux. Yes. We understand that it is a challenging 
budget climate. We also understand there is lots of need. We 
are hearing that tribes are really excited about this proposal. 
Secretary Burwell did testify today at the Labor HHS hearing, 
and I am waiting to get the exact language for that. But she 
did answer the same question that you have asked, which is, how 
are we going to pay for this. And she talked about how this 
budget was formulated over all the President's budget to be 
able to pay for it. So I will refer staff to follow up with us, 
with the Department of Health and Human Services, and we can 
help show you how that works.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. [Presiding] It is always good to visit 
about the budget. I want to start out by saying, I have been 
critical in the past about the Bureau fighting for dollars in 
the budget. I am going to give you guys the credit for what is 
in the President's budget. I think it is much better this time 
around than it has been in past years. So as I give you 
criticism when it is not good, I give you credit when it is 
good. I want to thank you for that.
    Kevin, it has been a while since you have been here. I know 
there was a point in time where you almost had a seat up here, 
because you were at every one of our Committee meetings. But 
this Committee has already reported a few bills out. This has 
nothing to do with the budget, it is just because I haven't 
seen you for a while.
    [Laughter.]
    Senator Tester. We have already reported a handful of bills 
out. That handful of bills we dealt with in the last Congress, 
too. And we didn't open it up for a new round of legislative 
hearings and I commend the Chairman for that.
    But what I want to hear from you is, can you say anything 
about the importance of the self-governance amendments or the 
energy bill that we passed out of Committee? We also had a 
couple that were focused on tribal youth that we all feel were 
pretty darned important. So could you just comment on those 
four bills for the record?
    Secretary Washburn. You bet. And Vice Chairman, I assure 
you that I have missed you. It is good to be back. And Senator 
Murkowski, you too.
    One of the bills that you passed out of the Committee was 
the Spotted Bear and Soboleff Commission on Native Children 
act, co-sponsored by Senator Murkowski. We are really glad to 
see that one passed on. We are glad that you are moving fast. 
It looks like the new chairman is moving just as fast as you 
did. You laid the groundwork for a lot of this and we are 
really grateful for that.
    We also testified last year on the Native American 
Children's Safety Act, sponsored by Senator Hoeven, primarily. 
And we worked with his staff, and that was a good bill, and 
that one has been passed on. So we feel really good about that.
    The Tribal Energy Bill as well, that would make 
improvements to that situation. We think that is terrific that 
you passed that out of the Committee.
    Finally, the Tribal Self-Governance Bill, we testified on 
that two Congresses ago. We testified on it last Congress, 
supportive both times. I understand that there weren't changes 
in it, the bill that you passed. So we think that all four of 
these bills, we congratulate you for getting them out of the 
Committee and hope that you can make progress with them in the 
full Senate.
    Senator Tester. It is my hope, and I think it is the hope 
of many, if not all, the people on this Committee, that we can 
get these through the Senate, through the House and on the 
President's desk. I appreciate your support of them.
    Let's talk about the budget for a second. When we do look 
at budgets for tribal programs, we look at the short term and 
we also look at the long term. I want to talk about the long 
term for a bit, because a lot of these problems are not going 
to be solved over a one-year period.
    So what is the long-term planning process, looking at some 
of the unmet needs in Indian Country?
    Mr. Washburn. We have to look long term, because frankly, 
the unmet needs are terrific. They are very high. We have 
additional needs and Senator Murkowski, I don't want to preempt 
her, but the needs in Alaska are high, and we don't provide for 
some of those needs currently. So if we had more money, there 
are a lot of great things we could do.
    However, one of the things we have to do is build up our 
infrastructure. So for example, we have included money for 
school construction this year. We have something near a billion 
dollars in needs in school construction. We haven't asked for a 
billion dollars in part because we have to have the 
infrastructure to spend that money. If you gave us a billion 
dollars today, we wouldn't be able to spend it in the next 
year. We have to have the staff in place so that we can spend 
that in a responsible way.
    So we have asked for a responsible amount of money. We 
haven't asked for everything that we ultimately hope for. So we 
think that we probably have a six-year or seven-year plan to 
address school construction in Indian Country. We can't swallow 
it all in one year.
    So that is sort of the idea, and that is, frankly, the way 
we are working on several of our budget requests.
    Senator Tester. Okay. Let's talk about school construction 
for a second. It includes a new line item for replacement 
facility construction, which appears to fund replacement of 
individual buildings or portions of schools.
    My question is this. Can a piecemeal response ensure the 
problems of BIE school conditions is adequately addressed? I 
don't think there is anybody on this Committee that doesn't 
understand the need for BIE school construction and rebuilds 
out there. It has been reported on in the press, it is ugly. 
Could you tell me how you see the piecemeal response versus a 
different approach?
    Mr. Washburn. Yes, Vice Chairman, thank you. I would 
characterize it as thorough and comprehensive, not piecemeal. 
Frankly, it is piecemeal if you only focus on construction. 
Because there is a lot more to education than school 
construction. It is one of our more serious problems, but we 
are trying to be comprehensive. Not only are we focused on 
construction, we are focusing on getting IT support and 
internet access to those schools, crossing the digital divide. 
We are focusing on Johnson O'Malley to some degree, which helps 
schools in Alaska and other places, public schools.
    And we don't have the luxury, unfortunately, of focusing 
just on one thing like school construction, even when it is 
abysmal. Because even in our functioning schools, honestly, our 
good condition schools, the quality of education is not high. 
So we have to focus on those issues as well.
    Senator Tester. Yes, and I am going to turn to Senator 
Murkowski for a second. But you are never going to get good 
teachers as long as those facilities are tanked out. It is just 
not going to happen.
    [The prepared statement of Senator Tester follows:]

    Prepared Statement of Hon. Jon Tester, U.S. Senator from Montana
    I want to thank the Chairman for holding this hearing on the 
President's FY 2016 budget. While it's not possible to fix everything 
in Indian Country in one year's budget, I think this is a good budget 
for Indian Country that keeps us going in the right direction. I want 
to thank the Administration for its attention to tribal issues and I 
want to thank our witnesses as well for their work on behalf of Indian 
Country.
    As everyone is aware, the President's budget has increases almost 
across the board for tribal programs, while also reining in the 
deficit. While we can't always agree on what issues should be 
prioritized, I think we all know that a responsible budget shouldn't be 
balanced on the backs of Indian Country.
    I think the budget emphasizes many of the issues that tribes have 
prioritized in the past few years. Every year, for decades now, we've 
heard of crumbling infrastructure in our Bureau of Indian Education 
schools. Well finally, the Administration listened, and has asked for 
enough funds to finish the 2004 school construction list.
    Over the past decade, tribal leaders, and the federal courts, have 
said we have to fund contract support costs. This budget provides for 
full funding of those costs, while also proposing to make those costs 
mandatory funding in the future, so they no longer cut into program and 
service dollars. This is a good thing that I hope all my colleagues can 
understand and agree on.
    Overall, the budget proposes over $20 billion across all the 
federal agencies targeting Indian Country. It is worth noting, though, 
this is only an 8 percent increase over 2015, and still does not meet 
the full needs of Indian Country. However, sitting on this Committee 
and hearing week in and week out about the unmet needs of tribal 
communities, I know that any increases will have an enormous impact on 
the well-being of Native Americans, Alaska Natives and Native Hawaiians 
across our country.
    The budget provides $2.9 billion for Indian Affairs at the 
Department of the Interior, an over $320 million increase. Nearly half 
of the increase is intended to improve the Bureau of Indian Education. 
This Committee has heard ample evidence of the impact underfunding 
education has on our Native youth, so focusing resources here serves as 
a solid step in the right direction.
    The budget would also provide additional resources to allow for 
greater management of trust assets, address climate change in Native 
communities, strengthen tribal governance, and continue supporting 
tribal families through the ``Ti-Wah-Hey'' Initiative.
    At IHS, the budget proposes a $460 million increase, which would 
fully fund contract support costs, increase referred care, and provide 
for new facilities and staffing. The proposed budget provides for 
behavioral health targeting youth, and would strengthen third party 
billing and collection efforts.
    Similarly, there are increases at HUD to improve tribal access to a 
myriad of housing programs; DOJ grant programs improving law 
enforcement efforts in Indian Country; initiating a loan guarantee 
program at DOE for tribal energy development; the list goes on and on.
    I know some of my colleagues on the Hill have dismissed this budget 
as being a wish list from the Administration. Well, for Indian country, 
this is not a wish list, but steps towards keeping the promises made to 
tribes through treaties and legislation throughout our long history.
    So I look forward to hearing from our witnesses today on the 
impacts that the FY 2016 budget will make in their respective 
departments and programs, and how we can work together to help fulfill 
the commitments we've made to Indian Country.

    Senator Tester. Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you.
    And thank you, to each of you, for being here this 
afternoon. I think that Senator Tester has stated it well, in 
terms of how we are going to meet the needs out there. We all 
have to be working together here. But it is difficult. Mr. 
Washburn, you point out the situation in Alaska quite well.
    I want to start, before I go to questions, I want to 
direct, instead of a question, a statement to you, Director 
Roubideaux. I do appreciate the Administration's advocacy on 
fully funding contract support costs. But I also recognize that 
it didn't come easy. It didn't come without tribes having to 
win before the Supreme Court in the Ramah case.
    Then the Republicans, I was pushing really hard within 
Interior Appropriations, to deliver justice to tribes by taking 
on the Administration's policy position of ignoring the 
responsibility of adequately funding tribal contracts. That was 
something that I really didn't think that I was going to have 
to do. It just seemed to me that once the courts ruled that the 
Administration would follow the direction and do the full 
funding right away and it didn't happen that way.
    I have committed to working with tribes in Alaska and 
advancing an effort to move contract support cost accounts into 
mandatory spending. I know it is going to be a heavy lift here. 
I don't pretend for a second that it won't. But I think this 
should be a priority. I think we should make this a priority.
    Tribal self-governance is a model that must be supported. 
It must be expanded. We cannot, in this Country, fulfill a 
Federal trust relationship based on failed economic policies 
and models that are stifled by bureaucratic regulations and 
broken promises.
    So I have been asking to work with the Administration for a 
couple of years now in partnership. Yet it seems like I am 
having to fight the Administration on staffing packages, on 
contract support costs, on base operational funding for 
village-built clinics. We have this conversation every single 
time. We have urged your leadership on achieving an 
administrative fix to the definition of Indian within the 
Affordable Care Act to confirm the definition with Medicare and 
Medicaid. I have worked to safeguard the Indian Health Service 
from sequestration, to be equally treated as other Federal 
health programs.
    But at every turn, it seems I am not getting that 
partnership, that assistance from your side. There remains, in 
my view, no leadership from the Administration on advance 
funding for IHS. Tribes have been frustrated. They have 
certainly been frustrated when they have come to me, I know 
they have been frustrated when they come to you.
    So I don't know what the White House is going to do with 
nominations. But I will just state here that should the White 
House be considering whether to just send your name forward for 
nomination, I am going to push back. I am going to suggest that 
they consider new leadership. Because we just haven't seen the 
results and the partnership that we have been hoping for. And I 
regret that and I am sorry that it has not proven better.
    But I wanted it to be clear at the outset here in this 
Congress where I am coming from and what it is that we are 
looking for.
    Assistant Secretary Washburn, I wanted to ask you about the 
report we had requested in the Omnibus last year that there be 
coordination with the Department of Justice and your agency to 
report to the House and Senate committees on the budgetary 
needs of our tribal courts within P.L. 280 States. Can you give 
me an update on that, when we might anticipate that report, 
kind of where we are in the status? This is a big priority.
    We have talked about jurisdiction so much in Alaska. I keep 
arguing, we can talk about jurisdiction, but we must make sure 
that funds are there for these tribal courts. So do you know 
where we are?
    Mr. Washburn. We don't have a report for you yet, Senator 
Murkowski. Actually, the report is not required by law. 
Although I don't disagree that a report is a good idea.
    Senator Murkowski. I thought it had to be within 180 days 
of when the Omnibus was signed.
    Mr. Washburn. We understand that it wasn't in the bill. And 
so there's no legal requirement for that report. Now, we don't 
need to quibble over that too much, because again, you've asked 
for that, we have talked about that and I think I have even 
suggested it. We need to be thoughtful about these things, and 
preparing a report is a way to prepare a map on what we need to 
do.
    So I am not quibbling that we should do one. But it sort of 
surfaced on my radar screen very recently.
    Senator Murkowski. Because we have been working with folks 
back home to get from them their costs, so that we can submit 
it to you all. That has been part of the problem, what is it 
going to take, what will it take to fund, to provide the 
funding for our tribal courts here. So I think we have been 
doing the leg work on our end with the assumption that this 
report was required. I don't know, maybe it is part of the 
Committee report.
    But again, it sounds like you are willing to work with us 
to provide for this, because I think this is going to be key 
for us.
    Mr. Washburn. We will do that, Senator. And with regard to 
your report about contract support costs, your comments about 
that, Winston Churchill once said that the United States always 
does the right thing after it has exhausted all other options. 
He might have been talking about contract support costs.
    So I am really thrilled that we are now at the right place 
on contract support costs. I congratulate everybody who 
continued to beat up on us until we did get to the right place 
on contract support costs. As you said, you now have a heavy 
lift, and we support you in that lift.
    Senator Murkowski. It was too long in coming, and I am glad 
that we are here.
    Mr. Chairman, I am going to be letting Mr. Boyd know that I 
am going to be sending you a letter on HUD income eligibility, 
which as you know, drives the NAHASDA funding. We have kind of 
an odd situation in Alaska, where in rural Alaska, the cost of 
living is almost double the cost of living in our urban areas. 
But in the reporting that goes out, it isn't reflected that 
way.
    So we have provided you with the necessary data to support 
the conclusion that income limits for Alaska rural residents do 
not appropriately reflect the cost of living differential. So I 
will send that out to you and we would look forward to your 
response. I thank you for the indulgence of extra time.
    Senator Tester. Senator Franken?
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Washburn, when I walked in from taking the vote, I 
heard Senator Tester talking about school reconstruction. And 
yesterday I asked Secretary Jewell about the funding and you 
mentioned the Bug School in your statement. I know that she 
says and you said you need to finish the remaining schools on 
the 2004 list, and that the Department of the Interior plans to 
issue a new list for school reconstruction later this year.
    I do want to know what the FY 2016 funding increase will 
mean for the Bug-O-Nay-Ge-Shig School in Leech Lake. Outside of 
school construction line items, your agency also has increased 
funds for technology, operations and instruction for Bureau of 
Indian Education schools.
    Will the Bug School be eligible for any of these funds this 
year, and what is your plan in the future to make sure the 
school finally gets replaced?
    Mr. Washburn. Thank you, Senator Franken. Our plan is to go 
ahead and run the new formula. I think that folks expect that 
it may very well be on the list, on the new priority list, when 
we run the new formula. But as I have said, we have tried to be 
more flexible. We had never had this line for facility 
construction. We have had school construction. We have 183 
schools around the Country, campuses, I guess I should say. And 
we have around 1,700 buildings.
    As you know, at Bug School, there is an elementary school 
that is in pretty good shape. There is a high school that is 
absolutely atrocious. And then there is the school out back 
where the language program is in, it is in a portable building.
    The problem, we haven't been very holistic, well, we have 
been too holistic in how we look at these things. Because we 
rate the whole campus, rather than looking at individual 
buildings. So Bug School didn't rate on the 2004 list, because 
part of the school is in fine condition.
    So we started thinking about, what are the solutions to 
this, so that we aren't in this situation. So we have added a 
whole new line to our budget called, we have a school 
replacement line, we have added a facility replacement line. So 
theoretically we could replace just one building rather than 
having to replace the whole campus. We have put $12 million 
into that line. We also have increased operations and 
maintenance funding as well.
    So I can't guarantee you about the Bug School. But I will 
guarantee you that it is on everybody's radar screen. The 
Secretary has been to the school. I have been to the school. I 
have heard you talk eloquently about it and I have seen it for 
myself now. Exposed wiring throughout the school, no science 
lab, it is indeed a pole barn. It is not safe. The hallways are 
way too narrow. It has serious problems. Nothing would make me 
happier than if it was number one on that priority list.
    But Congress told us that we had to use this formula. We 
couldn't pick and choose among our friends. We had to use the 
formula and we had to do that formula through a negotiated 
rulemaking. So I didn't get to draft the formula, 
representatives from Indian Country drafted the formula. We 
just have to see how it comes out to see where the Bug School 
is going to be on that priority list.
    Senator Franken. Okay, thank you.
    One area that I am seeing increasing concern about from 
tribal leaders in my State is drug abuse. Specifically, opioid 
and heroin use. This issue is particularly tragic among 
pregnant women, because of the extreme harm done to infants who 
are born addicted to opioids and suffer from withdrawal.
    Based on data from Minnesota's state-run public health 
assistance programs, from 2009 to 2012, the prevalence of 
maternal opioid use has doubled. While American Indian infants 
make up only 3 percent of kids born in these public assistance 
programs, they are 28 percent of the infants born with 
withdrawal symptoms.
    Secretary Washburn, I know the Tiwahe Initiative is 
intended in part to address substance abuse in Indian Country. 
Are you hearing about similar rates of opioid use across Indian 
Country as I am hearing about in Minnesota? How will the Tiwahe 
Initiative or other programs in the budget fight this rapidly 
increasing problem in my State?
    Mr. Washburn. Thank you, Senator Franken. We have heard 
serious problems related to opioids and other narcotics. Before 
that it was meth, and it has always been alcohol and other 
drugs, other substances. I heard from a tribal council member 
from the Ho Chunk Tribe just over the border in Wisconsin from 
Minnesota recently, who had six babies born in that tribal 
council member's district of one tribe within a two-week span. 
And each time that happens, you have to find a healthy family 
to place that baby with, because you can't give it back to the 
mother that has been using drugs while being pregnant.
    And you know, there weren't six sets, 12 parents, that you 
could give each one of those babies to. So it is really an 
epidemic, and it is something that has really informed our 
Tiwahe Initiative, as you recognized.
    One of the things the Tiwahe Initiative does is increases 
money for social services and for child welfare services, so 
that we can be better, more proactive. Our social workers tend 
to be running from one crisis to another, and they need a 
little bit more support. So it will help. We are also working 
on, in law enforcement, to prevent drug use and reduce 
recidivism. So to get people more help.
    This is somewhere where we have been focusing on an all-of-
government-approach too. So SAMHSA over at HHS has been our 
partner, the Substance Abuse and Mental Health Administration, 
in trying to address these issues.
    They are quite overwhelming. We are doing the best we can 
to try to figure out how to address them.
    Senator Franken. Thank you. I am well over my time, Mr. 
Chairman, but I will submit for the record a question for Dr. 
Roubideaux on this and another question.
    The Chairman. [Presiding] Thank you, Senator Franken.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Barrasso.
    Secretary Washburn, you mentioned in your opening about the 
internet and hooking up the schools. We all know the internet 
is really a basic tool for students building skills and for 
testing and for research and other purposes like that. Part of 
Generation Indigenous is expected to address this. But what 
plans do you have to connect all BIE grant and all BIE-run 
schools to the internet and have sufficient computer technology 
for the use by students and staff?
    Mr. Washburn. Thank you, Senator Udall. We have $34 million 
in this budget request, just for that purpose. We actually 
think this is a multi-year proposition as well. But we have to 
get those kids to where they need to be. They need to have 
internet access. These days we are required to do all sorts of 
testing in schools. Some of our schools in New Mexico are using 
pencil and paper, using the old Scantron type cards. Nowadays, 
most kids do those on computers, in well-funded school 
districts. We need all of our kids to be able to take their 
tests that way as well.
    So we have increased, we have a lot of money in this 
budget, $34 million, for this year. We are working with the 
Federal Communications Commission on their E-RATE program, to 
try to get more funding for our rural schools. We are also 
working with public-private partnerships, like with Verizon, to 
get computer access and routers and other technology that we 
can use in schools. We are leaving no stone unturned to try to 
solve this problem. Not just with our budget requests, but we 
are working with others as well.
    Senator Udall. Great. The next issue I would like to raise 
is the one of safe and clean schools. I think Senator Tester 
raised it in terms of teachers wanting to teach in a school 
like that, and clearly, students be inspired to learn, if they 
are in a good learning environment. What creative solutions are 
you developing to accelerate the repair and replacement of 
tribal school facilities?
    Mr. Washburn. We have requested $45 million for school 
replacement for next year. We have also requested $12 million 
for facility replacement for next year.
    We have also, by the way, increased funding in some other 
programs. Last year, we had a really tough winter. The price of 
natural gas went through the roof and schools were having to 
use some of their repair money and their operations money just 
to pay the gas bill. So we have put more money aside in those 
other lines, so that they can pay their gas bills without 
robbing Peter to pay Paul. So we are working on that.
    We are also working on teacher housing. We have money for 
teacher housing. Because the housing, it is not just the 
classroom where we put the teachers, it is the housing that has 
been bad, too. So we have significant increases in those areas.
    Senator Udall. And as you know very well, recruiting and 
retaining the best staff is a basic principle for success in 
business. What are your plans to improve the recruitment and 
retention of the best teachers and leaders for Indian schools?
    Mr. Washburn. Thank you, Senator Udall, that is a great 
question. One of the things we have done is we have increased, 
we have made a certification program, a professional 
certification program available to our teachers. Basically this 
is us saying, we are going to invest in you. And if you want to 
go through this program, we will pay for it.
    It is a lot of work for them to do it, but we want to 
invest in our teachers. If we are helping to improve them and 
investing in them, we hope that will be a significant retention 
effort. We are really hopeful that we can keep some of those.
    Senator Udall. We are learning how important early 
childhood education is. There is no doubt about that. All the 
research is indicating that you can have a dramatic impact on 
human development if you do it in those early years.
    What further investment is BIA and BIE making in early 
childhood learning, especially through the Family and Childhood 
Education Program, the FACE program?
    Mr. Washburn. Senator, yes, we have not asked for big 
increases in our FACE program. But what we have done is we have 
asked Secretary Arne Duncan to allow the Department of 
Education programs to change. States get early childhood 
education funding. But tribes were not eligible to apply for 
that funding. And so Secretary Duncan has changed the rules so 
that tribes are now eligible to apply for that funding. So that 
will make a lot more funding available to these programs. They 
are so important.
    Ultimately, that will help with K through 12 education, 
too, because the earlier we start with these kids, the more 
effective the education is going to be for them over the long 
term.
    Senator Udall. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Tester, I know you have an additional 
question.
    Senator Tester. Thank you, Mr. Chairman. This is for Rodger 
Boyd.
    Rodger, we have heard a lot about the 184 program at HUD 
and it is working well. One of the concerns is that it is 
focusing on home ownership off-reservation. Does HUD have a 
plan to make this program more supportive and really increase 
on-reservation home ownership?
    Mr. Boyd. Thank you for the question. And the answer is 
yes. We know that initially the 184 program was really designed 
to focus on trust lands. Over the years, many people were, 
because of the difficulties in obtaining that land and 
mortgages on reservation, what they were doing is they were 
going to border towns. These are still within the service area 
of the respective tribe.
    And at the request of many chairmen who still wanted to 
house their own tribal people, we expanded it to go off 
reservation. Fortunately, what has happened, and I have to 
thank this Committee for doing that, and that is the passage of 
the HEARTH Act. We have been, as Kevin mentioned earlier, we 
have been forming a really good working relationship between 
BIA and Interior and HUD to look at the development of the 
HEARTH Act because it is going to have a huge impact and allow 
tribes to do much better with regard to title searching and to 
set up the recordation of title. That has been one of the big 
barriers we have confronted in the past.
    Senator Tester. I appreciate that, Rodger. We are in 2015. 
The HEARTH Act was passed in 2012. We should already be seeing 
an uptick in on-reservation housing, if we are depending on the 
HEARTH Act. Have we seen an uptick in on-reservation housing 
over the last two years?
    Mr. Boyd. Not to date.
    Senator Tester. Okay, so what I would suggest that you do 
is get together, consult with Indian Country, try to figure out 
how you can make this money more focused on the trust lands in 
Indian Country. If you can do that, I think it will make you a 
hero. And it will solve a problem that is a big problem.
    Yvette Roubideaux, I have a real quick question. You said 
the President's budget has a particular focus on American 
Indian and Alaska Native youth. Can you tell me how IHS plans 
to prioritize the needs of Native youth? Do you have criteria 
that you are going to utilize when you talk about supporting 
programs in Indian Country that are going to directly affect 
Native youth?
    Dr. Roubideaux. Yes. It is real challenging, of course, 
because there is so much need. But the proposal in the 
President's budget for the Tribal Behavioral Health Initiative 
is to add funds to the methamphetamine and suicide prevention 
initiative to increase the number of behavioral health 
providers for youth, adolescent and family programming.
    Senator Tester. How will you know where to put those 
people?
    Dr. Roubideaux. There will be an application process, and 
it will be a demonstration of need and a demonstration of the 
applicant's ability to provide services to address that need.
    Senator Tester. Okay. I want to talk about veterans for a 
little bit. What interagency initiatives are going to be 
created or strengthened to ensure that Native veterans, who 
serve at a higher rate than any other minority, are getting the 
best care that they deserve, regardless of where they live?
    Dr. Roubideaux. Well, we appreciate your advocacy on that 
issue. You have done a lot on that. We have an MOU with the VA 
and we have the reimbursement agreement now with the VA. We 
have been meeting regularly with the VA not only nationally, 
but locally. So we are seeing expansion of tele-medicine, 
sharing trainings on behavioral health initiatives. We are 
seeing more work on a variety of different things.
    Senator Tester. Okay, in other words, you are building a 
partnership with the VA that needs to be built.
    Dr. Roubideaux. Yes.
    Senator Tester. Good.
    Rodger Boyd, last question. Since 1982, the Congress has 
prohibited the use of IHS sanitation facilities construction 
funds for HUD-funded homes in the appropriations bill. They 
have prohibited the use of IHS sanitation funds. Recent 
legislation has been proposed that would permanently remove 
that prohibition.
    Could you tell me what the impact would be on NAHSADA 
recipients?
    Mr. Boyd. As I am sure you know, through the block grant 
program, this is an eligible activity for tribes, for housing 
authorities. The problem, though, is that tribes sometimes have 
to make very difficult decisions on how they are going to spend 
these funds within their communities.
    Senator Tester. But right now, right now, they can't use 
sanitation facilities construction funds. If we change it so 
that when it comes to building homes, if they changed it so 
they could, what impact would that have?
    Mr. Boyd. Well, it would have a great impact.
    Senator Tester. Positive?
    Mr. Boyd. Yes.
    Senator Tester. Okay. Thank you.
    Dr. Roubideaux, you just heard Mr. Boyd's response to the 
questions about removing IHS sanitation construction 
provisions. Would you like to respond?
    Dr. Roubideaux. Yes, thank you, Vice Chairman. Certainly, I 
want to support tribal decision-making on funding options. But 
the challenge we have is that we have a $3.4 billion need for 
sanitation facilities construction projects in the Indian 
Health Service, with 2 billion feasible projects. And if that 
funding were now opened up, it is right now for Indian homes. 
It if was opened up for HUD homes, that would just add to the 
deficiency. So it is a challenge.
    Senator Tester. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator Tester.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you very much, Mr. Chairman.
    First off, I know that we have been kind of hard on you 
guys in the past when you came here and you are talking about 
your commitment, especially to Native American kids, and we say 
we don't see that commitment in the budget. Well, we certainly 
feel like those concerns have at least been listened to. 
Whether that is a significant enough increase to deal with what 
we see as systemic and long-term historic issues in Indian 
Country remains to be seen, especially given what may or may 
not happen in the United States Congress regarding these 
requests for funds.
    But I wanted to, I think, kind of start out with you, 
Kevin. I applaud the focus on Native American youth. I think 
you know that has been a major interest and concern of mine.
    What do you think we can do to guarantee that if we give, 
if we approve this increase in funding that the American public 
will actually see an improvement in the conditions for Native 
American children, whether it is in Indian education, whether 
it is in housing, whether it is in health care, mental health? 
Whether it is in fact in education attainment standards? How 
will we be accountable for those dollars and how do you see 
deploying these dollars in a most efficient way?
    Mr. Washburn. Well, thank you, Senator Heitkamp. That is 
one of the things we are most concerned about. But keep in 
mind, we are not just asking for more money. We are also 
talking about transforming the organization of the Bureau of 
Indian Education. We are also talking about transforming and 
making more holistic our BIA services as well, so that they are 
all working together better.
    We think we need more resources, for sure, but we also know 
that we can deploy those resources better by working together, 
by breaking down the silos between Cabinet level agencies and 
in our own shop. So one of the things we are doing is really 
reforming the BIE so it works better. Monty Roessel, the 
Director of the BIE, is here with me. He is working hard on 
that so the BIE can be more effective, not just at providing 
services itself, but supporting the schools, the tribally-
controlled schools.
    Senator Heitkamp. One of the points I want to make about 
Indian education, I think there can be all good intentions at 
the top. But if those attitudes do not filter down, with 
respect to tribal sovereignty, and with tribal self-
determination, those conflicts will continue to have a direct 
effect on the quality of Indian education. I just want to set 
that out there, Kevin, that you need to be very, very mindful 
of working in concert with tribal authorities and with tribal 
school boards, with public school boards that are working in 
Indian Country.
    Before my time runs out, I do want to ask you about an 
issue that is very significant, obviously, in my State. That is 
the status of the Spirit Lake Social Service Intervention that 
has been done by BIA. Can you provide me with just a real quick 
update and any kind of ideas of additional kinds of support 
that you would need in order to do the job that needs to be 
done at Spirit Lake?
    Mr. Washburn. Thank you, Senator Heitkamp. One of the 
requests that would help at Spirit Lake is our Tiwahe 
Initiative request. Because we are really trying to increase 
social services and provide more support, really nationwide, 
for social services. But it would help Spirit Lake.
    Your staff and our office have been right on top of this. I 
will tell you, we have seen a lot of improvement. We have fully 
staffed BIA social services out there, in part by hiring 
contractors, because we couldn't always get full-time 
employees. But we have fully staffed them.
    We have a new superintendent out there who has a master's 
in social work. So that is a plus. We are working on co-
locating the law enforcement with tribal social services and 
BIA social services so that they can all work together. We have 
been working closely with the Casey Family Foundation, so we 
have a public-private partnership there.
    Actually, we didn't really, I mean, we have been trying to 
pull out all the stops and think of anything we could do. 
Recently, our BIA Office of Justice Services took Spirit Lake 
leadership, including law enforcement leadership, social 
services leadership and the chairwoman herself down to the Salt 
River community in Arizona, where they are running a really 
good family advocacy center, and showed them how it works.
    Spirit Lake has been challenging. We feel like we have done 
everything we can do to support them. And we will continue to 
do that. But we really feel like they have the pieces in place 
to start to improve.
    Senator Heitkamp. Mr. Chairman, if you could just indulge 
me one additional question?
    Do you believe that every child at risk has been accounted 
for, is in a placement that protects that child and that we are 
moving in the right direction to hopefully reunite those 
children back with their families?
    Mr. Washburn. We are cutting down on our backlogs of 
investigations that we need to do. I don't know that there is 
any State in the Country or any tribe in the Country that meets 
the best practices requirement of small case loads for each 
social worker. But we are doing our best, and we now have 
staffing there to start to meet those obligations. We are doing 
the best we can.
    Senator Heitkamp. Thanks, Kevin.
    The Chairman. Thank you, Senator Heitkamp.
    Secretary Washburn, you have heard a lot of questions about 
education and commitment from members of this Committee in a 
bipartisan way, focusing on education. Right now, the Bureau of 
Indian Education is undergoing a major reform that involves 
transferring the administration of Indian schools to tribes. 
Several tribes currently operate schools that are working to 
improve the academic achievements of their students.
    All the Indian schools could benefit from some technical 
assistance. So I am just curious, can you explain how the 
Bureau will assist these tribes in administering the 
educational services to ensure that these children's learning 
experience and process isn't disrupted?
    Mr. Washburn. Thank you, Chairman. There is a lot to do 
there. That is exactly why we are reorganizing the BIE. It 
turns out that we have about 183 school campuses and boarding 
schools across the Country, and 125 of those are run by tribes. 
But we basically are still organized in the same way we were 
when we were running all the schools. So we need to be a 
different organization. We need to be an organization that 
provides technical assistance and supports tribes.
    That is what we are trying to re-make the BIE into. So that 
is job one for this reorganization. We have a way to go, and it 
has not been easy, frankly.
    A former assistant secretary told me, be careful in that 
area, because it is so dysfunctional you won't be able to 
succeed. We have waded in anyway, because we have to do 
something. These kids deserve it. So we are doing the best we 
can and we have a long way to go. But we are working diligently 
on our reorganization effort. President Obama himself is 
committed to this, and raises it every time he sees Secretary 
Jewell.
    The Chairman. Your written testimony also talks about the 
BIA implementing comprehensive strategies for alternatives to 
incarceration. I wanted to visit a little bit about that.
    The strategies are going to seek to address the underlying 
causes of the repeat offenders, such as substance abuse and 
alcohol is a significant contributing factor. It also 
contributes, certainly, in Wyoming, to high rates of death on 
the Wind River Reservation. I would ask you to elaborate on the 
types of strategies that you intend to implement.
    Mr. Washburn. We are working on some specific reservations, 
to try to adopt new strategies. Some of it is job training, 
some of it is substance abuse counseling and other things like 
that. We are trying to provide more support for those people 
who are re-entering the community, so that they won't re-
offend.
    You have to be creative, we have found out. We need more 
social workers, we need more substance abuse counselors, and we 
need jobs. Those are the three basic legs of the stool, and we 
are working to increase those.
    The Chairman. Then you think that will lead to success in 
the long run to really make this a sustainable, rather than a 
one-shot problem?
    Mr. Washburn. We do. The question though, is, we are trying 
to pilot it at certain reservations. What we find as we pilot 
these programs, and sometimes we show that they succeed, but we 
don't necessarily then have the money to go to 566 different 
tribes. That is one of the challenging things.
    But we need to prove it out, to make sure it works.
    The Chairman. Dr. Roubideaux, kind of following on this 
issue of substance abuse, according to the National Tribal 
Budget Formulation Work Group that you are familiar with of the 
challenges facing Indian people, no challenge seems to be more 
far-reaching than the epidemic of alcohol and other substance 
abuse. It is often a precursor to other serious issues, 
including violence in tribal communities. You've also heard at 
prior hearings that alcohol contributes to unacceptably high 
rates of death, certainly on the Wind River Reservation.
    Could you please explain how the behavioral health 
proposals, including this new Generation Indigenous Initiative 
in the budget request, is going to address these high rates of 
death on the Wind River Reservation due to alcohol-related 
injuries and abuse?
    Dr. Roubideaux. Thank you for your question, and I know you 
have a big interest in this area. I hope that we can work 
together on the tribal behavioral health for youth initiative.
    As we thought about the Generation Indigenous Initiative as 
an overall government initiative, we thought about, what is the 
role of the Indian Health Service. We have the clinical 
providers that can provide the mental health and wellness and 
treatment services for youth and adolescents, families, and for 
individuals in the community. Our alcohol and substance abuse 
line item is about 80 percent tribally-run. So we already work 
with tribes on culturally appropriate, holistic ways to address 
alcohol and substance abuse.
    I think that one of the biggest requests from tribes is, we 
need more behavioral health providers. This particular proposal 
helps us get more trained behavioral health providers in the 
communities, not only just in the clinic, but working with the 
schools and working in other youth-based places. So we think it 
will add value to providing the actual clinical services that 
are needed.
    The Chairman. I had a chance to spend some time this 
morning with some remarkable young people. Senator Dorgan, 
former chairman of this Committee, former Senator from North 
Dakota, he has a program, Center for Native American Youth, and 
a number of their champions were here today, and I have the 
privilege of spending some time with them.
    They have great concerns in these areas, and I think they 
are going to be champions and partner with you. This Committee 
has received testimony at prior hearings regarding the 
relationship between the risk factors of physical abuse, 
alcohol abuse, even suicides among young people. We had that 
discussion and those young people brought those things up 
today.
    So the Administration's Generation Indigenous Initiative is 
intended to improve programs or services for all Indian youth. 
In terms of families and adults in the households, I think if 
they are not included in any plan to address these risk factors 
that we may be missing a real opportunity to get a handle on 
these problems. That is what I heard this morning from these 
young folks.
    How is this new initiative going to address risk factors in 
families and communities?
    Dr. Roubideaux. I absolutely agree with you. If we don't 
address the issues in families, then the problems the youth are 
having won't go away. We actually heard that when the President 
went to visit Standing Rock. The youth told him about all the 
issues around them that are barriers to their success.
    So the purpose of this initiative is to try to reduce 
barriers and create opportunities for youth and their families. 
The reason we are adding the funding to the methamphetamine and 
suicide prevention initiative is that it is already a 
successful program that has many examples of successful youth 
and family-based programs, and a more holistic approach to 
integrating behavioral health and primary care. So we really 
feel like this adding value to an already evidence and 
practice-based program that will help address these issues.
    The Chairman. Thank you, Dr. Roubideaux.
    Secretary Boyd, the Committee held a hearing earlier this 
month on loan leveraging in Indian Country, highlighting in 
particular the Section 184 program that you have already 
discussed. This program provides access to mortgage financing 
and has been a fundamental driver, I believe, for tribal 
economies.
    There still is a high disparity of these loans approved for 
transactions occurring off-reservation compared to those on-
reservation. I am wondering how we can even that playing field 
so that tribal members living on the reservation can then take 
full advance of this 184 program?
    Mr. Boyd. Yes, thanks, Senator. I mentioned earlier that 
our goal really is to increase the opportunities for members 
living on reservation lands. Certainly I think in working with 
BIA and working with the Agriculture Department, we are all 
looking at this as to how we can turn this around. Certainly, I 
believe, as tribes gather greater control through the HEARTH 
Act, on leveraging or taking control over the titles and the 
title searches, I think there is a tremendous market on-
reservation.
    So we are hoping our work will bring fruit to increasing 
more 184 on reservations.
    The Chairman. I want to ask you a question also about the 
Indian Community Development Block Grant funds, looking at 
fiscal year 2014. Over 1,100 affordable units were 
rehabilitated, and 86 jobs were created. I think the statistics 
are that about 23 community buildings were built. The figures 
are notable. I think we must ensure that all the funds are 
being used effectively.
    The written testimony notes that the Indian Housing Block 
Grant Program and the Indian Community Development Block Grant 
programs have both been increased by about $24 million. Does 
the Department have any metrics or performance measures that 
can support this request for either of these programs?
    Mr. Boyd. Yes, well, one of the things that happens, 
especially with ICDBG, every year we have anywhere from two to 
three times more requests than we can fill. As I mentioned 
earlier, part of this increase of $10 million is set aside 
specifically for teacher housing throughout reservations, which 
is based really on a very high request and demand from tribal 
leaders who are trying to sort of complement some of the 
questions for Kevin, and that is to try and create an 
environment where teachers will come and want to live in the 
communities. I think that has been sort of a challenge. I think 
that will be extremely helpful.
    But this increase, since we do have anywhere from 50 
percent more requests than we have funds for, that certainly, I 
think, will help us fill that gap.
    The Chairman. Thank you.
    Would any other members of the Committee like to ask 
additional questions?
    Senator Franken. One I was going to submit, for Dr. 
Roubideaux. You have this crystal meth, or the meth program. 
Are you going to do a program for opioids?
    Dr. Roubideaux. Yes. The methamphetamine and suicide 
prevention initiative complements the alcohol and substance 
abuse funding. You can't just treat one sort of addiction. 
There are multiple things that people get addicted to in our 
communities. So we have had a big focus on opioids. Actually, 
the tribes in your area have been the leaders in that. They 
convened the first summit to look at the problems of opioid 
drug dependence. Because of their effort, we have established a 
new chronic non-cancer pain policy. We have established a 
number of trainings for our staff. We are the first Federal 
agency to actually require training for providers to help 
handle drug dependence, with a focus on opioids.
    So I really appreciate your interest in this, and 
especially the tribes in your area, they really helped us spur 
the entire system to try to help address this problem.
    Senator Franken. Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp?
    Senator Heitkamp. Just one additional question for Kevin. 
Tribal colleges, there are really only five that don't have 
forward funding. During the period of sequestration, this was 
hugely troublesome for the United Tribes. Obviously, providing 
for a one-time payment would do the kind of catch-up that we 
need to do. I am wondering what the Administration can do 
administratively to solve the problem of these forward-funded 
tribes, or the ones that are not forward-funded, and try and 
put them on equal footing with the other tribal colleges?
    Mr. Washburn. Thank you, Senator Heitkamp. I will look into 
that issue. I think that is statutory. I don't think it is our 
rules, I think it is yours, in other words.
    So I would be happy to look at that. But I do want you to 
know, you were at the State of the Union, I think I saw you on 
TV at the State of the Union. The President rolled out the 
proposal for providing tuition for two years, and this is the 
Department of Education budget, for every student in community 
college and tribal college. There would be a big plus-up in 
this budget if it gets enacted for tribal colleges, many more 
resources becoming available.
    UTTC does a great job. They are one of the leaders of 
tribal colleges. They have great leadership themselves. I will 
look into that issue and talk about it with my staff and see if 
we can make a proposal to you or something like that.
    Senator Heitkamp. Just want to make the point, as we look 
at building out education opportunities, the recruitment and 
training of a workforce that can bring that jobs development, 
it is critical that we make sure that we recognize the critical 
cultural importance of our tribal colleges but also the 
workforce training implications, whether it is in health care, 
which we have great concerns all across rural America, but 
particularly in tribal areas, whether it is in housing and 
building trades.
    This is really a building block of infrastructure that 
needs to be protected. I hope that as we talk about Indian 
education and we realize that that early childhood, that early 
experience that helps brain development of young children, so 
that they come ready to learn, they come already prepared, 
combined with that opportunity to transition into job training, 
which could in fact create real economic opportunity for jobs 
is also critical.
    So it doesn't just stop at that K through 12. It begins 
much earlier and hopefully continues that commitment in 
education to lifelong learning that will provide education and 
employment opportunities for tribal members.
    Mr. Washburn. Amen, sister
    [Laughter.]
    The Chairman. If there are no more questions for today, 
members may also submit follow-up written questions for the 
record. The hearing record will remain open for two weeks.
    I want to thank the witnesses for their time and testimony 
today. The hearing is adjourned.
    [Whereupon, at 3:58 p.m., the Committee was adjourned.]

                            A P P E N D I X

          Prepared Statement of the U.S. Department of Justice
    Chairman Barrasso, Vice-Chairman Tester, and members of the 
Committee:
    Thank you for inviting the Department of Justice to testify 
regarding the substantial support that the President's FY 2016 Budget 
requests for the Department of Justice for public safety initiatives in 
Tribal communities. Improving public safety in Indian Country continues 
to be a top priority for the Department. If enacted, this budget would 
represent a historic level of funding for American Indian and Alaska 
Native communities.
    The FY 2016 President's Budget for the Department of Justice 
requests $417 million in total resources to address public safety in 
Indian Country, or $296 million excluding funding for the Bureau of 
Prisons. Investments include significant and versatile grant funding 
totaling $221 million, an increase of 74 percent over FY 2015 enacted 
levels.
    Among the grant programs is a $5.0 million request for a new Tribal 
Domestic Violence Criminal Jurisdiction program authorized by Congress 
in the Violence Against Women Reauthorization Act of 2013 (VAWA 2013). 
This program would provide grants to Tribal governments and their 
designees to support Tribal efforts to exercise special domestic 
violence criminal jurisdiction over non-Indian offenders who commit 
violence against Indian spouses, intimate partners or dating partners, 
or who violate protection orders, in Indian Country. The funds may be 
used by Tribes to implement a broad range of criminal justice reforms, 
including updating criminal codes, providing counsel to indigent 
defendants, and supporting victims.
    The Department is also requesting $20.0 million to support enhanced 
victims assistance services to Tribal victims of crime as part of OJP's 
Vision 21 strategic plan. OJP's Office for Victims of Crime (OVC) 
worked with service providers, advocates, criminal justice 
professionals, allied practitioners, and policymakers to develop OVC's 
ground-breaking 2013 report, Vision 21: Transforming Victim Services, 
which outlines the difficulties faced by most providers in meeting the 
challenges of serving victims in the 21st century. One of the report's 
key findings is that a number of subgroups among the general population 
of crime victims--including Native Americans and Alaskan Natives--are 
underserved by existing programs and services. Through a portion of the 
$12.5 million in discretionary funding provided to support Vision 21 in 
FY 2014, OVC began implementing new programs to help Tribal communities 
improve services to victims of crime. The FY 2016 request, which would 
be funded through the Crime Victims Fund, would further expand OVC's 
efforts to develop evidence-based, culturally appropriate victims' 
services programs for the nation's Tribal communities.
    In addition to new grant funding, the Environment and Natural 
Resources Division is requesting an increase of $3.0 million to support 
an additional four attorneys who will work closely with federal and 
Tribal agencies to litigate cases addressing environmental violations 
in Indian Country, particularly violations resulting from the rapid 
expansion of oil and gas extraction on Indian lands. Additionally, the 
Office of Tribal Justice requests $240,000 in new resources for one 
additional attorney position to support the office's efforts to serve 
as the primary Department of Justice point of contact for federally-
recognized Tribes, to advise the Department on legal and policy matters 
pertaining to Native Americans, and to ensure internal uniformity of 
Department of Justice policies and litigation positions relating to 
Indian Country.
    The Department has worked hard to make its funding particularly 
responsive to the needs of Tribal communities. Departmental leadership, 
including the Attorney General, meets regularly with Tribal leaders 
through the Tribal Nations Leadership Council to gain valuable feedback 
about the most pressing issues in Indian Country and to discuss how the 
Department can work with Tribes to resolve these issues. The Department 
formalized its consultation policy in August of 2013 and issued a 
statement of principles to guide future interactions with Tribes in 
December of 2014.
    Closer collaboration and consultation led the Department to launch 
in FY 2010 the Coordinated Tribal Assistance Solicitation (CTAS), which 
streamlines the solicitation process that encompasses most of our 
available Tribal government-specific grant programs. Through CTAS, the 
Department has awarded over $525 million to hundreds of American Indian 
and Alaskan Native communities to invest in a variety of public safety-
related purpose areas. For FY 2016, the Department proposes a seven 
percent set-aside from OJP's discretionary grant and reimbursement 
programs to support Tribal justice assistance. Based on funding levels 
requested in the President's Budget, this set-aside would make $114 
million available in FY 2016 to support flexible Tribal justice 
assistance grants. The set-aside will provide a consistent source of 
significant, Tribal-specific grant funding that can be distributed 
through a Tribal assistance grants model based on the lessons learned 
from CTAS and allow OJP increased flexibility in awarding funds and 
streamlining reporting requirements.
    A better understanding of Tribal needs also led the Department to 
include in the FY 2016 President's Budget appropriations language 
changes that would provide two mechanisms for Tribes to access critical 
national crime information databases that do not exist under current 
law. A proposed change to the Department's Working Capital Fund statute 
would allow Tribes to reimburse the fund for supplies, materials, and 
services related to access to law enforcement databases. Additionally, 
the Department is requesting a change to OVW's appropriations language 
that would allow the use of certain prior year balances to develop and 
maintain tribal protection order and sex offender registries, to be 
used to enhance the ability of Tribes to access existing federal 
criminal information databases, which will provide Tribes with more 
comprehensive, national criminal history information.
    While federal taxpayer dollars are scarce and appropriators must 
consider many competing priorities, public safety in Indian Country is 
an investment that we cannot afford to forgo. As members of this 
Committee know, Tribal communities face severe problems: staggering 
violent crime and substance abuse rates, and unacceptable levels of 
domestic violence and sexual assault against Native women. The oil boom 
in the Bakken region has also brought increased crime, drug, and human 
trafficking, as well as potential environmental concerns, to Tribal 
communities in North Dakota and Montana.
    The FY 2016 President's Budget request for the Department of 
Justice represents a historic commitment towards addressing the public 
safety issues plaguing Tribal communities, and maintains our promise to 
fulfill our trust responsibility to Indian Country.
    The Department thanks the Committee for its interest in these 
critical issues and for its support.
                                 ______
                                 
 Prepared Statement of the Confederated Salish and Kootenai Tribes of 
                          the Flathead Nation
    Dear Senator Tester:
    The President's Budget for Fiscal Year 2016 (FY16) is another 
opportunity for this administration to express it priorities as you 
stated in your letter to me date February 10, 2015. The Tribal Council 
and I share your concerns and thank you for the opportunity to comment. 
We understand that you have a hearing on Wednesday, February 25 and 
that the record is open for comments for two weeks after the hearing. 
We may provide additional written comment as well during the comment 
period.
    First we recognize that the President's budget is always subject to 
the Congressional action. Tribal Departments and Programs at the ground 
level can only partly interpret the numbers in the President's budget. 
Increases that appear in the President's budget are always welcome and 
appreciated. The challenge is in determining what will actually reach 
the programs. Our perspective is that even with increases at this time, 
historic cuts and sequestrations have depleted so many programs such 
that it is difficult to meet the many and growing needs of our people.
    I have attached a summary of some comments submitted to me by our 
Departments. We are still collecting comments from a few. We would be 
glad to expand on any part of the summary. If you have a specific point 
of interest or if you have any questions about any of our comments 
please let me know and we will be glad to answer your questions and 
provide more detail as needed.
    The Confederated Salish and Kootenai Tribes know you have our best 
interest in mind and we look forward to working with you on budget 
matters, especially those that affect the Federal trust responsibility. 
We appreciate all you have done and continue to do for Indian Country.
    Attachment
Introduction
    This summary highlights some of the important features of comments 
from CSKT managers in the Departments listed below. The comments are 
not in order of priority.
Tribal Lands
    If resources for purchasing land and managing this asset are 
reduced it will affect our work in Appraisals, Fee to Trust 
transactions, Weed management, Land Title and Records, Range Inventory, 
probate processing and lease compliance. Each one of the areas listed 
is an important component to the management and protection of the 
Tribe's land base.
Natural Resources
    The Natural Resources Department is organized in three Divisions; 
Water, Environmental and Fish, Wildlife and Recreation. The Water 
Division includes Water Resources, Safety of Dams and Roads.
    Water Division: The shortfall comes in Safety of Dams 
rehabilitation, Road Maintenance, Water Management and Water Rights.
    Environmental Division: The shortfall comes in Non-Point Source 
program (an EPA program), Air Quality Improve Program (an EPA program), 
Air Quality monitoring (an EPA program), Pesticide Circuit Rider 
Program (and EPA program) and Water Quality related programs Including 
Clean Water Act 106 and Wetlands.
    Fish, Wildlife and Recreation (Wildlife Program): The Wildlife 
program funding is in the Bureau of Indian Affairs funding compact. 
Compact funding has been gradually reduced over the years and without 
an increase in funding the program has set the annual funding shortfall 
at about $132K. Reduced funding reduced core wildlife management 
functions, initiatives and comprehensive wildlife management 
activities.
Housing
    NAHASDA funds have been flat lined since 2000 and a $10 million 
increase is nice but it falls way below what our appropriation should 
be if we apply inflation to $650 million in 2000. A steady $10 million 
increase per year would be nice just to somewhat keep up with 
inflation.
    In the NAHSDA act, section 703 provides that Tribes have control 
over any training and technical assistance funds made available to 
Native American Tribes. The intent of this section was to dedicate the 
funds authorized to the Native American Indian Housing Council (NAIHC) 
as the NAIHC is the most familiar and comfortable with Indian specific 
issues. The NAIHC serves the Native Programs best in terms of meeting 
and understanding Tribal self-determination and local Tribal housing 
program design.
    Section 703 was put into statue at the request of Tribes as a 
negotiated section agreed to by the Tribes and Congress, after lengthy 
consultation.
    However, in recent years, the NAIHC has been required to compete 
for the training and technical assistance funds thereby defeating the 
purpose of Section 703. It appears HUD has been transferring dollars 
out of program line items for the HUD ``Transformation Initiative''. 
The transformation initiative funds reduce program operations and also 
fund training and technical assistance to ``for profit contractors''. 
These contractors are not familiar with the unique needs of Tribal 
Housing Programs.
    In the FY 2016 President's budget the NAIHC is allocated a certain 
amount of funding, but they must compete for any additional funding 
above the designated level. This competition requirement defeats the 
prior commitment and understanding of Section 703. This seems arbitrary 
and contrary to our earlier agreements. Not only that, the competition 
requirement takes time away from other more meaningful tasks. This 
arbitrary action decreases the effectiveness of the NAIHC and its 
service to Indian Country. Our position is that this requirement for 
competition is a direct move to reduce NAIHC's training and technical 
assistance efforts.
    The competition for training and technical assistance funds was put 
in place with little or no Tribal consultation. It disregards and 
dishonors prior Tribal--Congressional agreements.
    The CSKT Tribes are concerned as we have watched the Section 703 
mandate and understanding be ignored. Further, we are not aware of any 
Tribal consultation on modifying NAHASDA requirements previously 
negotiated by the Tribes in good faith.
    The CSKT remain concerned about any effort by the Native American 
Programs, HUD, to ignore the importance of past Tribal Nation 
agreements related to Indian Housing.
    We request that the Senate Committee Indian Affairs (SCIA) express 
opposition to any proposed HUD Native American Programs policy change 
which modifies earlier Congressional and Tribal agreements on how 
Indian Country is served.
Cultural Preservation
    Two important parts of this program are Rights Protection and 
Historic Preservation. Bureau of Indian Affairs Rights Protection 
funding has and continues to be short by an estimated $16K. Historic 
Preservation funding may show an overall increase but with the decline 
in funding over the years the program considers the funding levels to 
be inadequate and unpredictable, and the increase in number of Tribal 
Historic Preservation programs (from 12 to 157) continues to reduce the 
each programs share of the allocation.
Law and Order (Tribal Police)
    As with so many BIA funded programs, the historic decline in 
funding for Law enforcement has reduced the overall level of staffing. 
Any increase in the overall program is appreciated but more is needed 
to keep up with the increasing demands.
Forestry
    Tribal Forestry is organized in two divisions, Forest Management 
and Fire. Forest Management overall may see an increase but on the 
ground we see a need for an additional $1M. Such an increase would (1) 
Begin to reduce the glaring funding disparity with other similar 
federal programs and (2) Strengthen base tribal forest staffing and 
management activities. Fire funding has been an issue for a number of 
years. CSKT leadership presented testimony at the House Committee on 
Natural Resources in April 2014. Issues that have been raised include 
lack of ongoing Tribal Consultation, and while progress was made on the 
funding formula the fear is that the funding formula process is 
reverting back to the old HFPAS. Forestry recommends for fire:

        1.  Continue to work on implementation of the findings and 
        recommendations from the Indian Forest Management Assessment 
        Team report which included adding $100 million per year to BIA 
        and Tribal forestry programs. Adding approximately 800 staff 
        positions. And another $12.7 million annually for forestry 
        education and training programs.

        2.  Consider and evaluate separating BIA Fire Program Funding 
        from any allocation formula developed by the Interior Office of 
        Wildland Fire, Interior Fire Executive Council. We have 
        requested a separate funding mechanism in the past. Fund BIA 
        $50 million/year in fuels or not less than 25 percent of the 
        total allocation.

Education
    The proposed increase for BIE would potentially benefit Two Eagle 
River School. Other proposed increases aimed at systemic assistance to 
Indian families would synergistically assist our mission in Education. 
For example, again thinking of the needs at Two Eagle, the proposed 
$34.2 million for increasing broadband Internet and computer access 
would be beneficial. To the extent that the President's request 
reflects increased attention to Indian Country's needs, we are in 
support.
                                 ______
                                 
Prepared Statement of Sami Jo Difuntorum, Chairwoman, National American 
                         Indian Housing Council
Introduction
    Chairman Barrasso, Vice Chairman Tester, and members of the 
Committee, I am submitting this prepared statement regarding the 
President's Budget Request (PBR) for fiscal year (FY) 2016 on behalf of 
the National American Indian Housing Council (NAIHC). My name is Sami 
Jo Difuntorum and I am the elected Chairwoman of the NAIHC, the only 
national, Tribal non-profit organization dedicated to advancing 
housing, physical infrastructure, and economic and community 
development in Tribal communities throughout the country. I am also an 
enrolled member of the Kwekaeke Shasta in northern California, and the 
Executive Director of the Siletz Tribal Housing Department located in 
Oregon.
    I want to thank you for the opportunity to submit written testimony 
for the Committee's consideration as it reviews the PBR for the 
Department of Housing and Urban Development (HUD).
Background on the National American Indian Housing Council
    The NAIHC was founded in 1974 and has, for over 40 years, served 
its members by providing invaluable Training and Technical Assistance 
(T/TA) to Tribes and Tribal housing entities; providing information to 
Congress regarding the issues and challenges that Tribes face in terms 
of housing, infrastructure, and community and economic development; and 
working with key Federal agencies to address these important and, at 
times, vexing issues. The membership of NAIHC is expansive, comprised 
of 279 members representing 463 \1\ Tribes and Tribal housing 
organizations. The primary mission of NAIHC is to support Native 
housing entities in their efforts to provide safe, decent, affordable, 
culturally appropriate housing for Native people.
---------------------------------------------------------------------------
    \1\ There are approximately 566 federally-recognized Indian Tribes 
and Alaska Native villages in the United States, all of whom are 
eligible for membership in NAIHC. Other NAIHC members include state-
recognized Tribes eligible for housing assistance under the 1937 
Housing Act and grandfathered in to the Native American Housing 
Assistance and Self-Determination Act of 1996, and the Department of 
Hawaiian Home Lands that administers the Native Hawaiian Housing Block 
grant.
---------------------------------------------------------------------------
Brief Summary of the Problems Affecting Housing in Indian Country
    Historically, providing adequate housing throughout Indian Country 
has been a significant challenge, beginning with a lack of access to 
capital. Because of the trust nature of Tribal lands, title 
restrictions and jurisdictional issues, Native Americans have not been 
well served by traditional lending institutions when it comes to 
investing in economic, community and housing development projects. 
Private investment in the real estate market in Indian Country is 
virtually non-existent, with Tribes almost entirely dependent on the 
Federal government for financial assistance to meet their growing 
housing needs. Developing and improving housing infrastructure on 
Tribal land is critical to the promotion of economic development in 
Indian Country.
    A 2013 U.S. Census Bureau analysis reported that American Indians 
and Alaska Natives were almost twice as likely to live in poverty as 
the rest of the population--27 percent compared with 14.3 percent. Over 
40 percent of Native Americans in North Dakota and South Dakota live 
below the poverty line, and in seven other states (Arizona, Maine, 
Minnesota, Montana, Nebraska, New Mexico, and Utah) Native American 
poverty rates are about 30 percent or more. In addition, overcrowding, 
substandard housing, and homelessness are far more common in Native 
American communities.
    Because of the remote locations of most Tribal communities, there 
is a lack of basic infrastructure, economic development opportunities 
are difficult to identify and pursue. As a result, the poverty rate in 
Indian country is exceedingly high at 25.3 percent, nearly three times 
the national average. \2\ These employment and economic development 
challenges exacerbate the housing situation in Indian Country. The 
First Americans face some of the worst housing and living conditions in 
the country and the availability of affordable, adequate, safe housing 
in Indian Country falls far below that of the general U.S. population, 
as demonstrated by the following:
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, American Indian and Alaska Native Heritage 
Month: November 2011. See http://www.census.gov

  <bullet> According to the 2000 U.S. Census, nearly 12 percent of 
        Native American households lack plumbing compared to 1.2 
---------------------------------------------------------------------------
        percent of the general U.S. population.

  <bullet> According to 2002 statistics, 90,000 Indian families were 
        homeless or under-housed.

  <bullet> On Tribal lands, 28 percent of Indian households were found 
        to be over-crowded or to lack adequate plumbing and kitchen 
        facilities. The national average is 5.4 percent when structures 
        that lack heating and electrical equipment are included, 
        roughly 40 percent of reservation housing is considered 
        inadequate, compared to 5.9 percent of national households.

  <bullet> Seventy percent of the existing housing stock in Indian 
        Country is in need of upgrades and repairs, many of them 
        extensive.

  <bullet> Less than half of all reservation homes are connected to a 
        sewer system.

    There is a consensus among most members of Congress, HUD, Tribal 
leaders, and Tribal organizations that there is a severe housing 
shortage in Tribal communities; that many homes are, as a result, 
overcrowded; that many of the existing homes are in need of repairs, 
some of them substantial; that many homes lack basic amenities that 
most Americans take for granted, such as full kitchens and plumbing; 
and that at least 250,000 new housing units are needed in Indian 
Country.
The President's FY 2016 Budget Request for the Indian Housing Block 
        Grant
    On February 2, 2015, President Obama issued his PBR for 2016. The 
2016 budget includes $49.3 billion for the Department of Housing and 
Urban Development. The focus of this year's HUD budget is helping to 
secure quality housing for Americans; to end homelessness; to make 
communities more resilient from natural disasters; to protect people 
from housing discrimination; and to provide critical rental assistance 
for millions of extremely poor families. The PBR proposes an increase 
of $4 billion, or 8.7 percent, over current levels, to fund the 
Department.
    The PBR includes level funding of $660 million for Indian Housing 
Block Grant (IHBG) accounts, and $2 million for the Title VI loan 
Guarantee. The PBR calls for $6 million for the Section 184 Loan 
Guarantee fund, and $80 million for the Indian Community Development 
Block Grant (ICDBG), an increase of $16 million over the enacted FY 
2015 level.
    Inexplicably, the Administration has again zeroed out the T/TA 
program line item, typically included in the IHBG account. Similarly, 
the PBR does not include any funding for the Native Hawaiian Housing 
Block Grant (NHHBG) or the 184a Loan Guarantee Loan program. The NHHBG 
was funded at $9 million in 2015 and the 184a program at $100,000.
    NAIHC respectfully requests that the IHBG be funded at $700 
million, which is still far short of the estimated need of $875 
million. Even at $875 million, this funding will not meet all Tribal 
housing needs. Instead, it will only keep pace with the increased cost 
of housing construction, energy costs, and other inflationary factors. 
An analysis made by NAIHC indicates that since the inception of the 
IHBG program, the flat-funded program has lost tens of millions in 
purchasing power due to inflation. The ICDBG program should be 
appropriated at $100 million for the much-needed housing, 
infrastructure and economic development activities that the ICDBG 
provides, and the T/TA be funded at not less than $4.8 million and be 
delivered in accordance with the Native American Housing Assistance and 
Self-Determination Act, the authorizing statute.
    In its March 2014 report, the General Accountability Office 
entitled ``Native American Housing: Additional Efforts Needed to Better 
Support Tribal Efforts,'' (GAO-14-255) the GAO found that limited 
capacity at the Tribal level is exacerbated by changes in the delivery 
of T/TA they receive under the IHBG program. After Congress stopped 
appropriating T/TA funding exclusively to the NAIHC in FY2012, the GAO 
found that Tribes experienced confusion, unresponsiveness and other 
problems in accessing these services from the 7 other entities 
receiving T/TA funds. See Report at pp. 19-22.
    The simple fact is that the NAIHC is the only national Indian 
housing organization that provides comprehensive T/TA on behalf of 
Tribes and their housing entities. Because they know the value added by 
NAIHC's T/TA programs, the NAIHC membership has voted unanimously 
during each its annual conventions since 2006, to support a resolution 
that seeks to set-aside a portion of their own IHBG funding to support 
NAIHC's T/TA program. In addition, many NAIHC members have expressed 
concerns with the HUD demand/response delivery system for training and 
technical assistance and prefer to receive T/TA directly from the 
NAIHC.
Other Indian Housing and Related Programs
The Title VI and Section 184 Indian Housing Loan Guarantee Programs
    The PBR includes $2 million for the Title VI Federal Guarantee for 
Financing Tribal Housing Activities and $8.0 million for the Section 
184 Indian Housing Loan Guarantee Program. The Title VI program is 
important because it provides a 95 percent loan guarantee on loans made 
by private lenders, which is an incentive for lenders to get involved 
in the development of much-needed housing in Tribal areas. The target 
for fiscal years 2015 and 2016 is to guarantee five loans each year 
through Title VI.
    NAIHC believes that the PBR of $2 million for the Title VI program 
is insufficient and we strongly encourage an increase to $5 million to 
allow additional access to financing and credit to develop affordable 
housing in Indian Country. NAIHC respectively requests that the funding 
for the Section 184 program be increased from $7 million to the $9 
million level that was Congress appropriated in FY 2009.
The Indian Community Development Block Grant (ICDBG)
    While appreciated, the President's proposal of $70 million for the 
ICDBG is insufficient to meet the current needs for essential 
infrastructure, including sewer and running water, in Indian Country. 
In recent years, HUD has received two or three times as many ICDBG 
applications as can be funded. NAIHC requests that this program be 
funded at $100 million to provide additional resources for Tribes to 
rehabilitate, repair, acquire and construct new homes throughout Tribal 
communities.
Native Hawaiian Housing
    Low-income Native Hawaiian families continue to face tremendous 
challenges, similar to those that Tribal members face in the rest of 
the United States. The President's funding request of $13 million for 
the Native Hawaiian Housing Block Grant is appreciated. The PBR 
includes $1 million to the fund the Section 184A program in Hawaii, 
which should be sufficient to fund this important homeownership 
program.
Training and Technical Assistance and the Proposed Transformation 
        Initiative
    The PBR fails to provide the much-needed, exceptional T/TA that has 
been provided by the NAIHC since the inception of NAHASDA. The 
provision of T/TA is critical for Tribes to build capacity to 
effectively plan, implement, and manage Tribal housing programs. 
Eliminating funding for T/TA would be disastrous for Tribal housing 
authorities and would be a huge step in the wrong direction. Tribes 
need more assistance in building capacity, not less.
    The PBR proposes an agency-wide Transformation Initiative Fund 
(TIF) with up to 0.5 percent of HUD's total budget, which would draw 
funds away from essential housing programs, including $3.3 million from 
the IHBG account ``to continue the on-going comprehensive study of 
housing needs in Indian Country and native communities in Alaska and 
Hawaii.'' While the NAIHC membership believes the TIF may have merit, 
it does not believe that transferring nearly $3.3 million from the IHBG 
is a wise or even defensible use of IHBG funds.
    More importantly, the $3.3 million affects funding that has 
historically been appropriated to NAIHC for T/TA. As I have previously 
noted, the NAIHC membership has consistently taken the position that a 
portion of the IHBG allocation should be provided to NAIHC for T/TA, 
which is a reflection of the continuing demand for the essential 
capacity-building services that we provide. We request that funding in 
the amount of $4.8 million for T/TA is appropriated in FY 2016 with 3.3 
million provided to the NAIHC.
Conclusion
    NAHASDA was devised and enacted to provide Tribes with new and 
creative tools necessary to develop culturally appropriate, safe, 
decent, affordable housing. While we value and appreciate the 
investment and efforts that this Administration and the Congress have 
made, NAIHC has very specific concerns with the PBR for the Indian 
housing funding levels and hopes that Congress, guided by the 
leadership of this important Subcommittee, will work with the NAIHC and 
the Administration to recognize the acute housing and capacity building 
needs that continue to exist in Tribal communities.
    Consider these needs against a backdrop that includes the following 
observation from the GAO in its February 2010 Report (10-326, ``Native 
American Housing''), to the Senate Committee on Banking and the House 
Committee on Financial Services:

         NAHASDA's first appropriation in fiscal year 1998 was $592 
        million, and average funding was approximately $633 million 
        between 1998 and 2009. The highest level of funding was $691 
        million in 2002, and the lowest was $577 million in 1999. For 
        fiscal year 2009, the program's appropriation was $621 million. 
        However, when accounting for inflation, constant dollars have 
        generally decreased since the enactment of NAHASDA. The highest 
        level of funding in constant dollars was $779 million in 1998, 
        and the lowest was $621 million in 2009. \3\
---------------------------------------------------------------------------
    \3\ See GAO Report 10-326 at www.gao.gov/products/GAO-10-326 

    The path to self-sustaining Tribal economies is not achievable 
without a robust housing sector and Tribal housing conditions will not 
be improved without adequate funding. NAHASDA is not just about 
constructing houses. It is about building Tribal communities--
communities where health and safety are a top priority and where 
education can take thrive.
    Thank you Chairman Barrasso, Vice Chairman Tester for your 
continued support tribal housing programs, the housing and living 
conditions for America's indigenous people, and pursuit of ways we can 
mutually address housing and housing-related community development 
throughout Indian Country.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Steve Daines to 
                          Hon. Kevin Washburn





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
</pre></body></html>
